<html>
<title> - [H.A.S.C. No. 111-68] NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2010 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED  ELEVENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-68]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2010

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                AIR AND LAND FORCES SUBCOMMITTEE HEARING

                                   ON

          BUDGET REQUEST FOR AIR FORCE MODERNIZATION PROGRAMS

                               __________

                              HEARING HELD
                              MAY 20, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
52-187                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                    AIR AND LAND FORCES SUBCOMMITTEE

                   NEIL ABERCROMBIE, Hawaii, Chairman
JOHN SPRATT, South Carolina          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               CATHY McMORRIS RODGERS, Washington
ADAM SMITH, Washington               MARY FALLIN, Oklahoma
MIKE McINTYRE, North Carolina        DUNCAN HUNTER, California
ELLEN O. TAUSCHER, California        JOHN C. FLEMING, Louisiana
ROBERT A. BRADY, Pennsylvania        MIKE COFFMAN, Colorado
JIM COOPER, Tennessee                HOWARD P. ``BUCK'' McKEON, 
JIM MARSHALL, Georgia                    California
JOE SESTAK, Pennsylvania             W. TODD AKIN, Missouri
GABRIELLE GIFFORDS, Arizona          JEFF MILLER, Florida
NIKI TSONGAS, Massachusetts          JOE WILSON, South Carolina
LARRY KISSELL, North Carolina        FRANK A. LoBIONDO, New Jersey
FRANK M. KRATOVIL, Jr., Maryland     ROB BISHOP, Utah
ERIC J.J. MASSA, New York            MICHAEL TURNER, Ohio
BOBBY BRIGHT, Alabama
DAN BOREN, Oklahoma
                John Sullivan, Professional Staff Member
                Lynn Williams, Professional Staff Member
                      Ben Glerum, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, May 20, 2009, Fiscal Year 2010 National Defense 
  Authorization Act--Budget Request for Air Force Modernization 
  Programs.......................................................     1

Appendix:

Wednesday, May 20, 2009..........................................    51
                              ----------                              

                        WEDNESDAY, MAY 20, 2009
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
                    AIR FORCE MODERNIZATION PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Abercrombie, Hon. Neil, a Representative from Hawaii, Chairman, 
  Air and Land Forces Subcommittee...............................     1
Bartlett, Hon. Roscoe G., a Representative from Maryland, Ranking 
  Member, Air and Land Forces Subcommittee.......................     5

                               WITNESSES

Ahern, David G., Director, Portfolio Systems Acquisition, Office 
  of the Under Secretary of Defense, Acquisition, Technology and 
  Logistics......................................................     7
Darnell, Lt. Gen. Daniel J., USAF, Deputy Chief of Staff for Air, 
  Space and Information Operations, Plans and Requirements, 
  Headquarters U.S. Air Force....................................     8
Johns, Lt. Gen. Raymond E., Jr., USAF, Deputy Chief of Staff for 
  Strategic Plans and Programs, Headquarters U.S. Air Force......    10
Shackelford, Lt. Gen. Mark D., USAF, Military Deputy, Office of 
  the Assistant Secretary of the Air Force for Acquisition.......     9
Sullivan, Michael, Director for Acquisition and Sourcing 
  Management, Government Accountability Office...................    10

                                APPENDIX

Prepared Statements:

    Ahern, David G...............................................    55
    Darnell, Lt. Gen. Daniel J., joint with Lt. Gen. Mark D. 
      Shackelford and Lt. Gen. Raymond E. Johns, Jr..............    68
    Sullivan, Michael............................................    90

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bartlett.................................................   115
    Ms. Giffords.................................................   115
    Mr. Hunter...................................................   116
    Mr. Marshall.................................................   115

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
                    AIR FORCE MODERNIZATION PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Air and Land Forces Subcommittee,
                           Washington, DC, Wednesday, May 20, 2009.
    The subcommittee met, pursuant to call, at 2:41 p.m., in 
room 2118, Rayburn House Office Building, Hon. Neil Abercrombie 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE 
    FROM HAWAII, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Abercrombie. Well, everyone, thank you for coming. We 
are sorry we are starting a few minutes late. The vote 
apparently took place in such a way that we are about 10 
minutes behind. Again, aloha to all here, and thank you very 
much for coming.
    This afternoon, the Air and Land Forces Subcommittee meets 
to receive testimony regarding the Department of the Air Force 
modernization programs. We certainly welcome our witnesses, Mr. 
David Ahern, Director of Portfolio Systems Acquisition, in the 
Office of the Secretary of Defense (OSD).
    Lieutenant General Daniel Darnell, Air Force Deputy Chief 
of Staff for Air, Space and Information Operations, Plans and 
Requirements and Lieutenant General Mark Shackelford, Military 
Deputy in the Office of the Assistant Secretary for the Air 
Force for Acquisition.
    Lieutenant General Raymond Johns, Jr., Air Force Deputy 
Chief of Staff for Strategic Plans and Programs; and Mr. Mike 
Sullivan, Director for Acquisition and Sourcing Management of 
the Government Accountability Office (GAO), with whom I think 
virtually all of us are more than familiar right now. We are 
glad to see all of you.
    I first note and I want to underline this, that we have 
just recently received some of the detail of the fiscal year 
2010 budget request. The request did not include any 
information or data regarding plans, programs or budgets for 
fiscal year 2011 and beyond.
    That is of great concern to me because of some of the 
decisions that we are being asked to make in this defense 
budget and what we will be recommending to the appropriations 
committee involve decisions that obviously have implications 
that go beyond 2011. So I am hoping that we can clear some of 
that up before the markup.
    Overall, the Air Force has faced a number of challenges in 
executing its modernization programs. The F-22, the F-35, the 
combat search and rescue helicopter, the KC-X tanker and the 
Next Generation Bomber (NGB) programs have been the most 
prominently reviewed or critiqued.
    The current F-22 program of record is 187 F-22s. Yesterday, 
the Air Force Chief of Staff, General Schwartz, testified that 
243 aircraft is the right number, but 187 is ``the affordable 
number.'' The budget request does not include any more F-22s 
and line shutdown activities are proposed to begin in the 
fiscal year 2010.
    The Air Force has just taken the lead in the Joint Strike 
Fighter Program Office. That program continues to have cost and 
schedule problems, with testing further delayed and greater 
development and procurement concurrency being incurred.
    Yesterday, the Secretary of the Air Force, Michael 
Donnelly, was quoted as regarding the Joint Strike Fighter, as 
follows: ``We need to stay on cost and schedule.'' A rather 
amazing statement, but nonetheless one that I felt we needed to 
quote.
    We have heard that refrain before, on other major programs. 
Let me start with the first line of the recent GAO report, 
``Joint Strike Fighter development will cost more and take 
longer to complete than reported to Congress in April 2008.''
    The facts as provided by the GAO are that the Joint Strike 
Fighter development program in 2001 was estimated to cost $34 
billion with an aircraft, average aircraft procurement unit 
cost of $69 million. This is 2001.
    The December 2007 estimated development cost was $44 
billion, a 30 percent increase, and an aircraft average unit 
cost of $104 million, a 50 percent increase per aircraft over 
2001. The initial operation capability date has slipped two 
years to 2012.
    I am going over some of this detail, ladies and gentlemen, 
on our subcommittee and for members of the audience and to our 
witnesses, not because I don't think you know it or this isn't 
part of the conversation, but this is for the public record and 
for public consumption, and we wanted to make sure that the 
public has at least all of the perspective and perception of 
what our perspective is in a context that may be new to them.
    Last year's projection for the Joint Strike Fighter 
research and development was $2.1 billion. This year, the 
request is $3.6 billion, a 67 percent increase. This is without 
the cost of an alternate or competitive engine program.
    I would also note that under the current procurement plan, 
273 Joint Strike Fighters will be procured before flight 
testing is projected to be complete. I want to make sure that 
that number is before you, in case you want to dispute it or 
amplify on it. Two hundred seventy-three Joint Strike Fighters 
will be procured before flight testing is projected to be 
complete under the current procurement plan.
    Also, yesterday General Schwartz was quoted as saying that 
he would prefer ``a more rapid production rate for the Joint 
Strike Fighter,'' yet the Air Force request for the Joint 
Strike Fighter this year is two aircraft fewer than projected 
last year for this year.
    Regarding other Air Force programs, the helicopter program 
that would have procured 141 helicopters has been cancelled--
excuse me one moment--yes, the search and rescue helicopter 
program would have procured 141 helicopters.
    That has been cancelled in favor of a new undetermined 
search and rescue helicopter program that Secretary Gates 
believes will have a more realistic requirement and, if 
acquired, be a joint service program.
    The KC-X program that would procure 179 aerial refueling 
tankers to replace the 48-year-old KC-135 tankers was cancelled 
last year, after the attempted acquisition failed following a 
GAO protest. The GAO did not protest. That is a bit awkward, 
excuse me. Following the protest which was submitted to the 
GAO; is that more correct, Mr. Sullivan?
    A new request for proposal will be issued this summer, that 
is the present plan of Secretary Gates, with a source selection 
plan for the spring of next year. It has not yet been announced 
whether the Office of the Secretary of Defense or the Air Force 
will execute the source selection. Perhaps you will be able to 
enlighten us today.
    The Next Generation Bomber program, which would have 
replaced the aging B-52 fleet, has also been delayed. We are 
told that a new program may be started pending a review of the 
requirement and technology during the Quadrennial Defense 
Review (QDR) to be done later this year.
    Facing funding challenges in 2010 and in future years' 
defense program, the Air Force has decided to propose the 
accelerated retirement of about 250 fighter aircraft. The Air 
Force indicates this will save $351 million in fiscal year 2010 
and $3.5 billion across the future years' defense program.
    In the aggregate, the Air Force is facing significant 
changes in fiscal year 2010, therefore, to its modernization 
programs.
    Regarding now the specific issue of the Joint Strike 
Fighter program and the competitive engine program, overall, as 
I mentioned, the joint fighter testing schedule continues to 
slip to the right, while the Pentagon insists on maintaining 
the current production schedule. This creates more development 
and production concurrency, much like what was experienced with 
the Army's Armed Reconnaissance Helicopter (ARH) program.
    I am using the word production concurrency here to--to me, 
it is kind of like the equivalent of what my mother used to say 
to me, if wishes were horses, we would all be riding. That is 
the best I can figure out what concurrency means.
    It apparently means we are going to produce and at the same 
time be able to say, with some certainty that all the testing, 
safety requirements and all the expectations of the fighter 
will continue apace with the production schedule.
    I have never seen that happen in anything in my life, but 
apparently they think that is going to happen with the Joint 
Strike Fighter.
    The current Joint Strike Fighter baseline engine has barely 
begun flight testing, has yet to even fly in the most stressing 
vertical flight and landing modes and will not have its first 
flight in that flight regime until September.
    Aircraft design and engine testing problems have thus far 
caused a two-year slip in the F-35B's first vertical landing. 
The baseline engine for the Joint Strike Fighter had two 
turbine blade failures within the last two years requiring 
redesign, re-manufacture and delaying the flight test program.
    In April, the former Air Force Assistant for Acquisition, 
Ms. Payton, citing the Joint Strike Fighter baseline engine 
cost growth as ``an ongoing concern.'' Continuing, ``From 
fiscal year 2007 to 2008, the Joint Strike Fighter engine costs 
have grown causing a $3 million increase to the short takeoff 
vertical landing aircraft's unit fly away costs.''
    Without a competitive engine program, current Air Force 
plans call for approximately 90 percent of all Air Force demand 
fighters and a substantial percentage of all other service 
manned fighters to be dependent on one engine type from one 
manufacturer by 2030.
    The last time the Air Force proceeded with such a plan was 
the acquisition of the F-15 and F-16 aircraft. That resulted in 
dependence on one engine type for a large proportion of the Air 
Force fighter fleet. Because of engine reliability and 
durability problems in the 1970's, the Air Force ended up with 
a large percentage of its F-15 fleet grounded.
    As a result, in Europe, to keep up with the demands for 
refurbished engines due to much lower engine life than planned, 
the Air Force bought a small fleet of cargo aircraft and 
shuttled F-15 engines back and forth between bases and a 
centralized engine depot.
    The engine problems that resulted in an alternate engine 
program, in the late 1970's, were not discovered until two 
years after initial operational capability was achieved for the 
F-15. Currently, initial operation capability will not be 
achieved for the F-35B until 2012, five years after the 
Pentagon quit funding the current version of an alternate or 
competitive engine.
    The Pentagon fully funded the alternate engine program in 
the Pentagon's annual budget request for 10 years, fiscal year 
1997 through 2006. Parenthetically, forgive me if I am giving 
you information you already know, but again, it is very 
important for the public to understand the context within which 
we have to make this decision.
    Cost overruns--again, I want to repeat, the alternate 
engine or competitive engine was funded by the Air Force--by 
the Air Force--funded by the Congress at the Air Force request 
for 10 years.
    Cost overruns in other areas of the Joint Strike Fighter 
program, not the engine or the alternate engine program, in 
other areas of the Joint Strike Fighter program caused the 
Pentagon to discontinue its budget requests for the alternate 
engine.
    Three studies the committee asked to have done in 2007 were 
inconclusive with regard to the financial benefits of 
competition for engine development, procurement and operations 
and support.
    However, all three reports cited numerous likely non-
financial benefits of engine competition, including insurance 
against fleet grounding, contractor responsiveness, 
technological innovation, force readiness and industrial base 
breadth.
    All of these benefits were derived from the experience of 
what came to be known as the ``Great Engine War,'' GEW, the 
``Great Engine War.'' It has achieved a phrase of art in 
Pentagon lore.
    With that as our background, we look forward to our 
witnesses' opening remarks, and I am sure they look forward to 
making them now with that background, but before we begin--and 
I appreciate and thank all the members in the audience for 
their indulgence in this rather lengthy and, I hope, 
informative opening remark.
    Let me call on my good friend and a friend to armed 
services members everywhere, the ranking member of this 
subcommittee, the Honorable Roscoe Bartlett.

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
   MARYLAND, RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Bartlett. Thank you, Mr. Chairman. There is no doubt 
that this budget and the decisions that come along with it will 
fundamentally change the United States Air Force.
    In the recent series of full committee posture hearings, a 
consistent theme has carried through and I want to echo it here 
today. I feel that there has been an absence of thoughtful 
debate, discussion, and in some cases, analysis to support this 
budget request.
    I see two problems here. First the budget should not drive 
the strategy. The strategy should be set. Then the funding 
requirements are laid out in the budget that follows. It 
appears to me that in many cases, funding limitations in the 
fiscal year 2010 budget top line were the sole driver in major 
policy decisions.
    The second problem that I see is that instead of openly 
engaging the legislative branch on policy matters, proposed 
force structure changes and the shifting of requirements for 
major weapons system platforms, the executive branch has chosen 
to lock us out of those debates and tie our hands by unveiling 
sweeping policy changes buried under the guise of a budget 
request.
    As a case in point, take the retirement of 250 legacy 
fighters. It is my understanding that this idea came up 
sometime last year and the details were worked out over the 
course of many months. Why may I ask, were we not brought into 
that discussion well before the budget request was formulated?
    Shouldn't the members of this committee have been given the 
opportunity to discuss this matter on the substance of the 
issues and the implications of national security and homeland 
defense before it ended up as savings in the budget request?
    The Joint Cargo Aircraft (JCA) is another example. All of 
you have heard my thoughts on this over the course of the 
previous full committee hearings. I have asked witnesses from 
the Army, the Air Force and the Office of Secretary of Defense 
(OSD) what has changed?
    Why is this mission being moved out of the Army and solely 
over to the Air Force when not four months ago, we received the 
quadrennial roles in missions review report that stated that, 
``the option that provided most value to joint force was to 
assign the C-27J to the Air Force and Army.''
    None of them have been able to answer the question, but all 
of them stated that there was no new study or analysis 
conducted that countered the existing plan or reduced the Joint 
Requirements Oversight Council (JROC)-approved requirement for 
78 Joint Cargo Aircraft, not the 38 envisioned in this budget.
    What has happened as a result of all this is that the 
Congress is now left to debate the puts and takes in the budget 
when there has been no vetting of the underlying threat 
assumptions, policy or strategy. Furthermore, we have not been 
provided a five-year funding plan, although it is required by 
law.
    We have not been provided an annual aircraft procurement 
plan and certification as required by law. How is it that we 
are being asked to authorize funding for the advanced 
procurement of aircraft and ships and ground vehicles, when we 
cannot see the Department's procurement plan for the fiscal 
year 2011?
    We can't see the strategy. We can't see the assumptions. We 
can't see the plan for the out years. All we can see is a 
budget request that terminates the Next Generation Bomber, 
terminates the combat search and rescue helicopter. It 
terminates production of the F-22. It terminates production of 
the C-17 and it terminates the Army's involvement in a Joint 
Cargo Aircraft.
    What are we supposed to tell the American people? We and 
you are supposed to function as a team, perhaps analogous to 
the husband and wife team. If we related to our wives as you 
have related to us, I don't think we would have happy 
marriages. Indeed, we might not even have a marriage.
    This body, not the executive branch, is charged with the 
constitutional mandate to raise and support armies and navies. 
I am extremely troubled that these decisions have been made in 
a vacuum and appear, at least on the surface, to be informed by 
nothing other than top line budget pressures.
    I am very interested to hear from our witnesses today. 
Perhaps they can shed some light on these decisions. Gentlemen, 
thank you for taking the time to be with us today. I will look 
forward to your testimony, and thank you, Mr. Chairman.
    Mr. Abercrombie. Thank you, Mr. Bartlett. Gentlemen, I 
think you can see that Mr. Bartlett and I prepared our remarks 
separately, as we always do. We talk all the time, but our 
remarks are not coordinated on purpose so that there is no 
conspiratorial accusations able to be rendered.
    But you can see that we both have zeroed in on as 
particularly where the advance procurement is concerned, what 
we consider to be fundamental policy questions well within the 
jurisdiction and purview of the subcommittee and by extension, 
the full committee.
    These are serious policy implications and I hope they can 
be addressed forthrightly today. Without objection, all witness 
prepared remarks will be included in the hearing records. So, 
if you can summarize your views and/or take the opportunity 
perhaps to respond even--not necessarily in detail to the 
opening remarks that will be welcome.
    We will proceed first then with Mr. Ahern. Am I pronouncing 
your name correctly, sir?
    Mr. Ahern. Yes, sir. That is fine.
    Mr. Abercrombie. Thank you. And we will, when the 
statements are finished, we will proceed in regular order today 
in terms of seniority. Mr. Ahern, if you please. Thank you, for 
your appearance today and thank you for your service to the 
Nation.

   STATEMENT OF DAVID G. AHERN, DIRECTOR, PORTFOLIO SYSTEMS 
    ACQUISITION, OFFICE OF THE UNDER SECRETARY OF DEFENSE, 
             ACQUISITION, TECHNOLOGY AND LOGISTICS

    Mr. Ahern. Thank you, and good afternoon, Mr. Chairman 
Abercrombie, ranking member Bartlett, distinguished members of 
the subcommittee. Thank you for the opportunity to appear 
before you. I will be brief in order to move to the committee's 
questions.
    As you know, on April 6th, Secretary Gates announced key 
decisions he would recommend to the President in regard to the 
fiscal year 2010 defense budget. As part of his remarks, the 
Secretary stated that one of his principal objectives was to 
rebalance the Departments' programs, to institutionalize and 
enhance our capabilities to fight the wars we are in today and 
the scenarios we are most likely to face in the years ahead, 
while at the same time providing a hedge against other risks 
and contingencies.
    In terms of tactical Air Force structure, the Department 
position is that the force structure we have programmed meets 
the requirements for the national military strategy. The 
capabilities contained within the Air Force and across the 
services to include strike fighter aircraft, unmanned aircraft 
systems, aerial refueling tankers and intelligence, 
surveillance, and reconnaissance (ISR) assets combine to form a 
robust program prepared to deter and defeat a wide range of 
threats to our security.
    In terms of the F-22, the Department believes the program 
force of 187 F-22 aircraft, combined with a larger force of F-
35 aircraft, provide the necessary mix of strike fighter 
aircraft to meet the military strategy. The Department's 
analysis showed that while we have adequate air-to-air 
capability, we need a significant amount of air-to-ground 
capability that the F-35 provides.
    One key area in regard to the F-22 is that the Department 
must ensure that the program force can prevail against advanced 
threat. The Air Force plans a $7 billion modernization effort 
across the Future Years Defense Program (FYDP) to provide 
important improvements for the F-22 fleet.
    For the Joint Strike Fighter, the budget request includes 
$10.8 billion to continue development and to support the 
procurement of 10 conventional, 16 short takeoff and vertical 
landing (STOVL) aircraft and the first four carrier variants.
    The Secretary has also stated his intention to increase the 
number of F-35 aircraft across the FYDP. That creates a more 
efficient ramp rate as we prepare to enter full rate 
production. Recognizing the committee's interest in the F-35 
alternate engine, I can tell you that the F-35 acquisition 
strategy contains provisions for a second engine program 
provided funds are available.
    Consistent with our past positions, the Department did not 
include funding in the budget for the F136 engine because there 
is not a compelling business case to fund completion of the 
development effort. The Department does, of course, continue to 
execute appropriated development funds for the 136 engine.
    Among the Secretary's decisions, was that of canceling the 
Combat Search and Rescue Replacement Vehicle Program known as 
CSAR-X. The services in the U.S. Special Operations Command 
possess a wide spectrum of overlapping and complementary 
personnel recovery capabilities.
    A deep penetration mission to recover downed crews in a 
complex threat environment requires a joint solution. Since 
this mission drives many of CSAR-X requirements, it is 
imperative we reassess that mission in the context of joint 
force capabilities.
    The Joint Cargo Aircraft program is important to help 
address the aging force structure supporting the Army's time-
sensitive mission-critical airlift mission. The decision to 
transfer the Army JCA mission to the Air Force was based on an 
agreement between the two services, a real breakthrough in 
jointness.
    The reduction in the total quantity of JCA aircraft is an 
acknowledgement that the Department can expect to meet more 
requirements through better management of our intra-theater 
airlift assets.
    Moving now from intra-theater to strategic airlift, from a 
fleet capacity perspective there is no indication that the 
Department needs additional strategic airlift beyond the 205 C-
17s and the 111 C-5s already programmed.
    As to the KC-X program, now that the Deputy Secretary and 
the Under Secretary for Acquisition Technology and Logistics 
have been confirmed, the Secretary will meet with them along 
with the Air Force Secretary and the Air Force Chief of Staff 
to finalize an appropriate course of action with regard to the 
KC-X.
    The Secretary has stated his intention to consult with 
Congress and to brief them before finalizing the Department's 
approach. We anticipate being able to solicit proposals from 
industry this summer with award of a contract by late spring, 
2010.
    We are grateful for the continued support of Congress, 
which has been critical to ensuring our airmen are the best 
trained and best equipped air force in the world.
    Thank you for this opportunity to testify in the 
Department's plans to continue to equip them for today's wars 
and tomorrow's challenges. I look forward to answering any 
questions you may have. Thank you.
    [The prepared statement of Mr. Ahern can be found in the 
Appendix on page 55.]
    Mr. Abercrombie. Thank you, very much.
    General Darnell, I have you next. If you want to change the 
order, you can. Is it all right?
    General Darnell. That is just fine. Thank you.
    Mr. Abercrombie. Thank you, and thank you for your service 
as well, General Darnell.

STATEMENT OF LT. GEN. DANIEL J. DARNELL, USAF, DEPUTY CHIEF OF 
  STAFF FOR AIR, SPACE AND INFORMATION OPERATIONS, PLANS AND 
           REQUIREMENTS, HEADQUARTERS U.S. AIR FORCE

    General Darnell. Sure. Good afternoon, Mr. Chairman, 
ranking member Bartlett and distinguished members of the 
committee. Thank you for calling this hearing and for the 
opportunity to discuss our Air Force programs.
    The Air Force continues to contribute to operations across 
the globe to provide support to the combatant commanders, 
ensuring that they have the means necessary to accomplish their 
assigned missions. As you know, that level of continuous effort 
takes its toll on the readiness of our air assets.
    We are here today to discuss those effects and our plans to 
work within the fiscal year 2010 budget to ensure we find the 
correct balance of maintaining and procuring the necessary 
assets to meet current and future Air Force requirements. I 
thank the subcommittee for allowing me to appear before you 
today and for your continued support of the Air Force.
    My opening comments are brief, but I respectfully request 
our combined written statement be submitted for the record. I 
look forward to your questions.
    [The joint prepared statement of General Darnell, General 
Shackelford, and General Johns can be found in the Appendix on 
page 68.]
    Mr. Abercrombie. Thank you, General Darnell.
    General Shackelford.

   STATEMENT OF LT. GEN. MARK D. SHACKELFORD, USAF, MILITARY 
DEPUTY, OFFICE OF THE ASSISTANT SECRETARY OF THE AIR FORCE FOR 
                          ACQUISITION

    General Shackelford. Yes, sir. Chairman Abercrombie, 
ranking member Bartlett, distinguished members of the 
committee, thank you for calling this hearing and for the 
opportunity to provide you with an update on Air Force 
modernization efforts and other matters that are important to 
our Air Force and the Nation.
    The Secretary and the Chief of Staff of the Air Force have 
made recapturing acquisition excellence a top Air Force 
priority. Earlier this month, they approved the Air Force 
Acquisition Improvement Plan, which identified the following 
five initiatives: revitalize the Air Force acquisition 
workforce; improve the requirements generation process; instill 
budget and financial discipline; improve Air Force major 
systems source selections; and establish clear lines of 
authority and accountability within acquisition organizations.
    We are developing more detailed implementation plans for 
the individual actions within each of these initiatives and 
will remain flexible with the ability to adjust as suggestions 
and initiatives proposed by Congress and the Office of the 
Secretary of Defense come our way.
    I will conclude my opening remarks by saying that we are 
committed to recapturing acquisition excellence by rebuilding 
an Air Force acquisition culture that delivers products and 
services that are essential to Air Force modernization programs 
as promised on time, within budget and in compliance with all 
laws, policies and regulations.
    Thank you for inviting me today. I look forward to 
answering your questions.
    [The joint prepared statement of General Shackelford, 
General Darnell, and General Johns can be found in the Appendix 
on page 68.]
    Mr. Abercrombie. Again, thank you for your service, General 
Shackelford, and finally, General Johns. I just wanted to 
mention for purposes of the member's attention and the emphasis 
that if you have questions with regard to requirements, they 
should go to--first you can send them to anybody.
    But I think General Darnell is the key person here; General 
Shackelford, of course with acquisitions, and now General 
Johns, who will be speaking to us in the area of long-range 
planning.
    Well, thank you. Welcome and thank you for your service as 
well, General Johns.

STATEMENT OF LT. GEN. RAYMOND E. JOHNS, JR., USAF, DEPUTY CHIEF 
 OF STAFF FOR STRATEGIC PLANS AND PROGRAMS, HEADQUARTERS U.S. 
                           AIR FORCE

    General Johns. Thank you, Mr. Chairman. Mr. Chairman, Mr. 
Bartlett, I am grateful for the opportunity to appear before 
this distinguished committee to speak on behalf of the United 
States Air Force and the dedicated airmen who are defending 
freedom in air, space and across cyberspace.
    I am proud of the fighting spirit of these brave young 
Americans who carry the great traditions of our Air Force. Our 
airmen stand watch every minute of every day as they do so with 
pride and honor. I thank this subcommittee for all that you 
have done for the airmen and for their families because their 
families also serve our Nation.
    I am honored to be here and I stand ready to answer your 
questions.
    [The joint prepared statement of General Johns, General 
Darnell, and General Shackelford can be found in the Appendix 
on page 68.]
    Mr. Abercrombie. Thank you, very much.
    And now, Mr. Sullivan. Again, Mr. Sullivan has been 
involved in his professional capacity with acquisition and 
sourcing management for the GAO, and we are happy to have you 
back again, Mr. Sullivan. And thank you for the perspective 
that you have been able to provide both this committee and the 
full committee over the years.
    Mr. Sullivan. Thank you, Mr. Chairman, Representative 
Bartlett, members of the committee. I am very pleased to be 
here today.
    Mr. Abercrombie. Can you pull the microphone a touch.
    Mr. Sullivan. Yes.
    Mr. Abercrombie. A little closer. Thank you.

  STATEMENT OF MICHAEL SULLIVAN, DIRECTOR FOR ACQUISITION AND 
     SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Sullivan. Thank you. I am very pleased to be here today 
to discuss the status of the F-35 Joint Strike Fighter 
Acquisition program. I would like to make a few brief points in 
my opening statement and ask that my written statement be 
submitted for the record.
    Mr. Abercrombie. Without objection.
    Mr. Ahern. First, the F-35 is critical to our Nation's 
plans for recapitalizing the tactical air forces and it will 
require continued long-term commitment to very large annual 
outlays. Second, cost to develop the F-35, which has already 
increased by 30 percent as the chairman noted earlier in his 
statement from $34.4 billion to $44.4 billion, is now projected 
to increase an additional $2.4 billion according to the program 
office.
    And as much as $7.4 billion according to a Joint Estimating 
Team (JET) comprised of OSD, Air Force and Navy cost estimators 
assuming the joint team's estimate development costs would now 
be projected at $51.8 billion, a 50 percent increase from the 
original baseline.
    The main reason for these costs and schedule overruns 
continues to be problems with manufacturing development 
aircraft and engines. Design changes, parts shortages, out of 
station work and supplier problems have caused significant 
manufacturing inefficiencies and increased labor hours that 
have led to higher costs and have caused the program to adjust 
manufacturing and delivery schedules four times so far in 
development.
    My third point, the Joint Strike Fighter flight test 
program which was reduced last year to pay for development cost 
overruns has once again been extended this time by a year. This 
lessened the overlap between development and operational 
testing which is a good thing. It gets rid of some of that 
concurrency that you were talking about, Mr. Chairman.
    But the plan is still very aggressive, very little white 
space, very little room for error. Flight testing of the first 
vertical lift test aircraft has been slowed by engine problems. 
And the first flight of the first carrier variant test aircraft 
has been delayed. As the program stands now, it will have 
procured 273 F-35s before flight testing is finished.
    My fourth point, the program is aggressively ramping up its 
procurement rates in the next five years in order to 
recapitalize the aging tactical Air Force fleet. This means the 
Department will now spend an estimated $54.3 billion to procure 
383 aircraft by 2014 before the development program is 
completed.
    There are also plans to procure an additional 28 aircraft 
between 2011 and 2015; however, we have not seen the annual 
schedule for those buys because these aircraft will all be 
procured before development and testing is complete. The 
government plans to procure them using cost reimbursable 
contracts placing most, if not all, of the financial risk on 
the government.
    Fifth, the program has not funded its alternate engine 
program, as you cited, Mr. Chairman, which was part of its 
original acquisition strategy since 2007. And it has no funding 
in its current budget request.
    Our past work examining the costs and benefits of a 
competitive engine program found that the program would have to 
achieve about 12 percent savings across the engine's lifecycle 
through competition in order to recoup its initial investment 
in a competitive engine's source and that--sorry, sir, I don't 
know how that happened--and past programs, most notably the F-
16 competitive engine program that you cited earlier which 
spurred the ``Great Engine Wars'' achieved much higher savings 
than that.
    In fact, I believe the ``Great Engine Wars'' achieved an 
overall lifecycle savings of 21 percent. In addition there is 
great consensus that non-financial benefits such as increased 
engine performance over the lifecycle, increased reliability, 
contractor responsiveness, and improved industrial base health 
could also be achieved with this alternate program.
    The F-35 program is at a crossroads with continuing 
manufacturing problems, increasing costs and slowing deliveries 
of test aircraft. The flight test program remains about two 
percent complete today.
    While the Department must move forward with the program to 
recapitalize our aging tactical air fleet the rate at which it 
is accelerating its orders before flight testing is complete 
increases risks that the aircraft will not meet requirements, 
will need additional work after they have been bought and will 
eventually cost much more than expected.
    In March, we recommended that the Department reexamine its 
plan to ramp up procurement under these conditions and to 
analyze the risk it is accepting by procuring as many as 273 
aircraft under cost reimbursable contracts. The Department 
agreed with that recommendation.
    We believe that with an improved delivery schedule and 
contracting strategy the program can more effectively meet the 
needs of the war fighter.
    Mr. Chairman, thank you for your time. I will do my best to 
answer any questions the committee might have.
    [The prepared statement of Mr. Sullivan can be found in the 
Appendix on page 90.]
    Mr. Abercrombie. Will you be submitting your summary for 
the record? Did I understand that correctly?
    Mr. Sullivan. Yes, we have a written statement----
    Mr. Abercrombie. Yes. That we have.
    Mr. Sullivan [continuing]. That will be submitted for the 
record. We also have--we were asked to provide some PowerPoint 
slides as an attachment.
    Mr. Abercrombie. Yes, that is in our--that which you have 
just read, can you submit that for the record as well?
    Mr. Sullivan. Yes.
    Mr. Abercrombie. Good. Thank you. Before we begin, Mr. 
Ahern, I want to make sure that I understand something that was 
in your statement. I want to make sure I am reading it 
correctly. On page four, if you can look, it is our page four. 
I am presuming you have the same material in front of you that 
we have given out to the committee.
    I will read it to you. This is regard to the F-22, 
``analysis also showed that while we have adequate air-to-air 
capability, we also need a significant amount of fifth 
generation air-to-ground capability.''
    It may be that I am not quite clear as to what the 
implications of the phrase ``fifth generation'' are. The reason 
I am asking is there is no mention of the F-22's air-to-ground 
capability, particularly with regard to the Joint Direct Attack 
Munitions, the JDAMs, or the Small Diameter Bombs, the SDBs, 
which I believe fulfill that air-to-ground capability.
    Now it may be that you are saying that you need more than 
that but it goes unmentioned. I just want to make sure, do you 
consider that the F-22 air-to-ground capability--did you 
consider that when you were talking about the Tactical Air 
(TacAir) decisions with regard to the question of air-to-air 
capability and air-to-ground capability? I want to make sure 
that I am on the right page here.
    Mr. Ahern. Yes, sir. When I wrote that statement, of 
course, I had assistance. It came primarily from conversations 
on the joint air dominance study that has been shared with 
members of the committee's staff as I understand it.
    Mr. Abercrombie. Mm-hmm.
    Mr. Ahern. And it has a force mix of F-22s and F-35s and it 
was a stressing scenario where there was both air-to-air and 
air-to-ground targeting if you will, sir.
    Mr. Abercrombie. Yes.
    Mr. Ahern. And the essence that I took away--but I will be 
glad to come back and revisit it and I think maybe I should--
was the F-22 is predominately the air-to-air dominance----
    Mr. Abercrombie. Yes.
    Mr. Ahern [continuing]. And the JSF was predominately, but 
I am not saying exclusively, the air-to-ground. I would, I am 
sure there are other intricacies of the study that I failed to 
ask. When I wrote it that was what was on my mind from my 
familiarity with that study.
    Mr. Abercrombie. Okay. Yes, not so much to get into an 
argument about it, but I want to--because one of the advantages 
of the F-22, at least the way it is presented to me, is it does 
have that capability with air-to-ground.
    Mr. Ahern. Yes, sir, and in my oral statement I mentioned, 
and I am sure that my compatriots from the Air Force today 
would also talk about the modernization of the F-22 through the 
Future Years Defense Plan (FYDP) and beyond that it is exactly 
in the--part of it is exactly in the areas that you are talking 
about.
    Mr. Abercrombie. Okay. We don't have to pursue further. 
Thank you very much.
    I will go first then to Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Mr. Ahern, I think that you said in your testimony that you 
had concluded that with better management of your in-theatre 
assets that you could meet the Army's demand for light cargo 
planes with just 38 planes rather than the 78 that the original 
studies said they needed.
    I believe that the original study said that the Army needed 
78 of these planes and then since the Air Force also had a need 
for light cargo planes it was decided, against Air Force wishes 
is my understanding, that the Air Force should join this 
program.
    It should be a joint procurement and that the number of 
planes that the Air Force needed for their responsibilities 
were yet to be added to the 78 that the Army needed. And my 
question, sir, is what study can you cite that indicated that 
not only did we not need the 78 that the original study said 
the Army needed, and whatever additional airplanes the Army 
needed which, sorry, the Air Force needed which had not yet 
been added to that procurement?
    That now you could meet both needs with just 38 aircraft. I 
might remind you then at least three prior hearings here we 
have asked the witnesses, ``Was there a study that indicated 
that the original need for 78 could now be reduced to 38?''
    And each one of them told us with some conviction that they 
knew of no such study. Was there in fact a study, sir, that 
they did not know about that you cited when you made the claim 
that you had decided you could now meet the needs of the Army 
with just 38 planes?
    Mr. Ahern. I am not--I think my statement, I would have to 
go back and read it is that the requirement for the current 
submission was 38 aircraft, but that there was an intent to 
study the full range of the requirements in-theatre in 
conjunction with the Air Force taking on that mission.
    But that there was an indication that there were assets in-
theatre that could support that time-sensitive, mission-
critical time-sensitive demand, sir. I did not--I do not want 
to say that the 38 is lying flat forever. My understanding is 
that is the initial request and that will be studied during the 
QDR to determine if that is the right amount.
    Mr. Bartlett. Yes, I have your statement here, ``The 
decision to reduce the JCA procurement from 78 to 38 aircraft 
was made after considering a full range of options that 
included procuring as many 92 Joint Cargo Aircraft and as few 
as zero.''
    I believe this study was made prior to the present surge in 
Afghanistan. I think it would be hard to argue that the 
requirements are now less than they were then. And I might 
remind you that the Air Force had yet to add their need to the 
78 documented need for the Army.
    Sir, this is just one of a number of different instances 
where we believe that the number that is requested in the 
budget does not represent the need, but represents rather what 
can be afforded. Are we wrong?
    Mr. Ahern. Not from what I understand is the way the budget 
was constructed, sir. But I would like to take your question 
and get back to you with the analysis that was done to get to 
the original force structure for the JCAs and the work that has 
been done subsequently.
    Mr. Bartlett. Is there anybody who believes that the in-
theatre Iraq and Afghanistan need is now less than it was then? 
See we are kind of confused as to why an earlier study would 
validate a need of 78, which did not include the Air Force's 
need, and now just because there is less money available 
suddenly the need in an expanded requirement is less than half 
of the original need, considerably less than half when you 
include the yet-to-be-determined number of planes that the Air 
Force would need.
    Mr. Ahern. Yes, sir.
    Mr. Bartlett. Is this just a statement to justify this 
without any study to confirm it?
    Mr. Ahern. No, sir, not on my behalf, not on the 
Department's, as again----
    Mr. Bartlett. Then there was a study you are telling us?
    Mr. Ahern. I am saying as part--there certainly have been 
studies previously. I need to take that question forward as the 
program was taking shape in determining the number for this 
year, sir, I would like to take that question. But my 
understanding was that with that came a commitment to look at 
the puts and takes, the additions and the subtractions, as part 
of the QDR.
    If there were more as the Air Force took over the mission 
from the Army, that the 38 was the right number for the fiscal 
year 2010--or, excuse me, for this initial commitment, but 
going forward it certainly could be changed. But there was a 
recognition that there were C-130's in-theater that could 
support that mission with the Air Force taking it on from the 
Army.
    Mr. Bartlett. Sir, in the prior hearings I don't think 
anybody said that 38 was the right number. They all said that 
they knew of no reason, no study that would reduce the required 
number from 78 to 38. In fact, there was a repeated statement 
that we are going to procure at least 38.
    Are we to imply from that that this is still under 
discussion in the Department? That you have not yet reached a 
final decision as to what the needed number is?
    Mr. Ahern. As I understand it, yes, sir, that is true. As 
the Air Force and the Army--and I will defer to my Air Force 
brethren on my left--as the Air Force takes on the mission from 
the Army in that specific area, as they develop their concept 
of operations and their plans, yes, sir, I would expect that 
that number of JCAs would change.
    [The information referred to can be found in the Appendix 
on page 115.]
    Mr. Bartlett. Thank you very much.
    Mr. Abercrombie. We will pursue this, then, Mr. Ahern, 
okay, in time to come.
    Mr. Ahern. Yes, sir.
    Mr. Abercrombie. Thank you.
    Mr. Marshall is next, to be followed by Mr. Hunter.
    Mr. Marshall. Thank you, Mr. Chairman. Mr. Ahern, I want to 
pick up where Mr. Bartlett left off.
    The Institute for Defense Analyses (IDA), at our request, 
did a study of lift and in its study considered 36 different 
mixes. The study's unclassified report published March 13th of 
this year seems to indicate that for low-intensity conflicts, 
the wars that we are in right now and we think probably we will 
be in for the foreseeable future, the right mix of lift 
includes not 38, but my recollection is 98 JCAs.
    Now, obviously, you can vary that in lots of different--you 
know, you could make a number of different changes, but there 
is a big difference between 38 and 98, and I--the reason, I 
think, the administration is hearing so many concerns from 
Congress, it is not just Mr. Bartlett and myself, it is many 
others, with regard to JCAs. We have been listening to the JCA 
pitch now for a number of years.
    It is very credible, and it is supported by independent 
studies. Now, with regard to independent studies, generally, 
sir, the 2005 mobility capability study came up with 292 as the 
lowest permissible figure for strategic lift and, lo and 
behold, that is precisely what the Pentagon decided to adopt.
    Now that 2005 study was one that many of us thought was 
fatally flawed because those conducting the study were required 
by the Department of Defense (DOD) to assume certain things 
that anybody, with a wit of sense and a knowledge of history, 
would conclude aren't going to come true. And if those things 
don't come true, then the figure would be higher than 292.
    So in your opening remarks and in your written statement, 
the suggestion that there is nothing out there that indicates 
to us that perhaps the total lift needs to be beyond 292, I am 
talking about C-17s and C-5As--C-5s, pardon me, is not true.
    We don't know the exact number, but we do know that it is 
well above 292 just based on that study. And one thing that 
concerns me is that the mobility capability requirements study 
(MCRS) you say in here, an early indication from the MCRS 
analysis suggests thus and such.
    To my knowledge, this committee has not been privy to the 
MCRS analysis nor to any, you know, early peek into that 
analysis and some here worry that the analysis may be driven 
too much by a need to reach the right answer.
    So we would like to know a little bit more about how that 
analysis is being conducted and how independently the judgment 
is being made from senior officials who are concerned about 
bottom line numbers and whether things are affordable.
    Could you describe that process and the independence of 
whoever it is that is involved in doing the MCRS from a 
directive that a certain result needs to be obtained and you 
just need to find out how to get us to that result?
    Mr. Ahern. Sir, I would like to take that question. I 
definitely talked to Program Analysis and Evaluation (PA&E)--I 
was familiar with the MRCS studies from my work earlier with 
the C-5. And when one of the questions that came to me was to 
look at airlift, I went to the PA&E to see where they stood on 
the MCRS 2016. They gave me an overview of what they were doing 
and provided me the thinking that I wrote up.
    In the detailed work on the study, sir, I didn't ask them 
that question. I would like to ask them that question and get 
back to you on that.
    Mr. Marshall. That is certainly okay with me. You know, we 
need to be very comfortable that whoever is conducting this 
study is actually trying to determine what the requirements are 
as opposed to coming up with a formula that will reach a 
result, which has effectively already been dictated. You know, 
that is backwards.
    If it is bad news, it is bad news. If it is bad news for 
the Department, if it is bad news for the country we need to 
hear that bad news.
    [The information referred to can be found in the Appendix 
on page 115.]
    Mr. Abercrombie. Thank you, Mr. Marshall.
    Mr. Ahern. Yes, sir.
    Mr. Abercrombie. Mr. Ahern, I assure you, as you can tell, 
members of this committee do their homework and they also 
listen to what is presented to them by the Pentagon over time. 
Sometimes, you know, be careful what you wish for 1 year 
because somebody on this committee will remember you wished for 
it and then if the wish changes, there has to be some 
accounting for it.
    The main reason that we are pushing as hard as we are right 
now is we are getting into markup stage pretty quick here and 
we are going to try and stay on a schedule with regard to the 
2010 defense bill and, hopefully, the appropriations that go 
with it, to try and finish on time. That is the goal of, I 
think, all sides here. This is not a partisan issue.
    So that is the reason we are pressing as much as we are, to 
try and get some answers or some perspective that will help us 
make the decisions. So we will be following up particularly on 
this joint cargo--or the cargo aircraft, I think, is going to 
be a key element in the decisions we have to make.
    Mr. Hunter has returned, so I think I said it was Mr. 
Coffman, but it will be Mr. Hunter next.
    Mr. Hunter. Thank you, Mr. Chairman.
    First to General Johns, I think, that is who I am----
    Mr. Abercrombie. Mr. Kissell, excuse me, Mr. Hunter, Mr. 
Kissell will follow Mr. Hunter.
    Mr. Hunter. I think I am addressing this to General Johns. 
With our stable of bombers we have right now, and this could be 
an easy yes or no, does any air defense system in the world 
give you pause with our ability to strike deep?
    General Johns. Sir, right now I believe we can accomplish 
the missions set before us. As we looked at the Next Generation 
Bomber and the future of long-range strike, we look to the 
future to say how can we ensure that the combatant commanders 
and leaders of our Nation have the ability to hold any target 
at risk and strike it and resolve it, as they need to be?
    So I think we are good right now, but again that is why the 
discussion in the QDR, as we go through that, as to what does 
the future hold in these?
    Mr. Hunter. Is there anything that you see being worked up 
right now that would give you pause in five years or 10 years, 
based on our current fleet?
    General Johns. No, sir, I am comfortable within that 
timeframe for sure.
    Mr. Hunter. Got you, thank you. Next, to switch gears here, 
General Darnell, I think is the right general here, can you 
tell us about how the Air Force--because this is something that 
I talk to everybody about, is that the Golden Hour in 
Afghanistan, we didn't have it. We weren't meeting that 
standard, and I know Secretary Gates said he is on it, and that 
was one big thing he was pushing for.
    Can you tell us what the Air Force is doing with rotary 
wing aircraft in terms of casualty evacuation (CASEVAC) and 
medical evacuation (MEDEVAC) in Afghanistan?
    General Darnell. I would be happy to, Mr. Hunter. We have 
deployed more aircraft forward. We have quadrupled the number 
of Air Force combat search and rescue aircraft that are 
forward. What we are finding is we are flying in an environment 
which it doesn't really matter whether it is counterinsurgency 
or whether it is high end, asymmetric, they both involve very 
kinetic situations.
    One advantage the Air Force has is we trained to the high-
end mission in combat search and rescue. We outfit the aircraft 
appropriately, forward-looking infrared (IR), weather mapping, 
as well as we have personnel on board, which--pararescue in 
particular, as well as gunners who are prepared to defend the 
aircraft.
    Mr. Hunter. Are you dual-hatting combat search and rescue 
rotary wing aircraft for search and rescue and for MEDEVAC, 
CASEVAC?
    General Darnell. We are.
    Mr. Hunter. And would you say that the majority of your 
search and rescue fleet in Afghanistan is being used for 
MEDEVAC, CASEVAC purposes to meet that Golden Hour standard 
right now?
    General Darnell. Yes, that is accurate.
    Mr. Hunter. Okay, so let me switch over to Mr. Ahern. Is it 
wise, do you think, that the Secretary stopped the CSAR-X 
program, the acquisition of that, when it seems to me like the 
Air Force is pressed right now to perform MEDEVAC, CASEVAC 
because of the lack of ability for the other services to 
provide it for themselves, in that kind of environment. Mr. 
Ahern.
    Mr. Ahern. Yes, sir, I understand the question, but I need 
to take it. I am not in--I don't understand exactly the--I 
understand the question, but I am frankly not able to address 
it. I will take it.
    Mr. Hunter. Generals, did any of you up there want to 
address this, the fact that you are canceling your search and 
rescue when you don't have enough birds to provide dedicated 
MEDEVAC, CASEVAC birds, while at the same time providing search 
and rescue birds, because you have to have search and rescue 
all over? Wherever you are flying anything you have to have 
that ability.
    And I would think that you would want dedicated search and 
rescue and not have to dual hat, not have to say, hey, we are 
not going to go pick up these guys because you are able to do 
it, because you have gunners and you have the ability to do it, 
in a kinetic firefight situation, which a search and rescue 
would be or a MEDEVAC would be, but would you want the ability 
to have enough airplanes to do it--to do either one or to do 
both at the same time?
    General Darnell. Mr. Hunter, I will tell you, as far as 
numbers are concerned, we were looking for 141. Our intent, 
though, was not to separate out the missions themselves. We 
would still be happy to perform MEDEVAC, if required. And as I 
pointed out earlier, I think in the Secretary's comments 
regarding a joint program, I think he is looking for a utility 
aircraft that just about any service can fly.
    Our point in the Air Force is we are the only service that 
trains to these kinetic situations and working well with other 
combat support aircraft. And I will give you a good example. We 
just had a pickup about 50 miles north of Bastian. It was a 
young Marine in a vehicle that was hit by an improvised 
explosive device (IED).
    It was not a very simple scenario. It was a scenario that 
we trained to in our weapons school at Nellis, we had F-15s and 
B-1s involved dropping GBU-38s. The combat search and rescue 
aircraft that flew in, the crew was experienced in working in 
that kind of environment, did not have time to wait until the 
scenario calmed down.
    They went in, in the middle of the firefight basically, and 
picked this young Marine up. The response from the Marine 
doctors was he would not have survived had they not done that.
    So it is our point in the combat search and rescue mission 
is we train to it, we equip to it----
    Mr. Hunter. I am not arguing that you aren't the best 
equipped to do it.
    General Darnell. Right.
    Mr. Hunter. My argument is do you want the ability to do 
both, and I am out of time. Thank you very much.
    General Darnell. And we can do both, and I understand your 
point.
    Mr. Abercrombie. Well, we are going to have to pursue this 
also, General Darnell. You can see the questions here need to 
be answered. What we have right now, to follow up just 
momentarily, Mr. Kissell, before we get to you, and you need to 
get back not just to Mr. Hunter but to us on this, Mr. Ahern.
    And you, General Darnell, because the requirement aside, as 
I said in my remarks, all we have from Secretary Gates right 
now is they are supposed to be more realistic requirements, 
whatever they are--I think Mr. Hunter has pretty well 
enunciated what they are--and, if acquired have a joint service 
program.
    We have got other situations where services are being 
severed from that and they become an exclusive service. Now, it 
may be that the joint--because of the nature of, say, the 
rescue helicopter, both for MEDEVAC purposes and other rescues, 
or as Mr. Hunter said, simultaneous. It may be that this 
requires joint, but all we have is the assertion and there are 
clear legislative implications for us in that. So we need to 
get something definitive pretty quick.
    I don't mean to--I hope I have amplified correctly here.
    Mr. Hunter. Yes, Mr. Chairman. Thank you.
    Mr. Abercrombie. Yes. So this is not an academic question. 
This is something that is in real-time decision making for us, 
right?
    Mr. Hunter. The reason why is because the Marine Corps 
might be meeting the Golden Hour. The other areas might not 
right now.
    Mr. Abercrombie. Yes.
    Mr. Hunter. Because you don't have enough birds there. You 
don't have the right personnel to do it.
    Mr. Abercrombie. Thank you. So let us--you don't have to 
come further today, but if you can put that into the mix of 
discussion you have in getting back to us, we would be 
grateful.
    [The information referred to can be found in the Appendix 
on page 116.]
    Mr. Abercrombie. Mr. Kissell and then Mr. Coffman will----
    Mr. Kissell will yield to Mr. Massa, and then Mr. Coffman 
will be next.
    Mr. Massa. Thank you, Mr. Chairman. Thank you, Mr. Kissell. 
Generals, collectively, my personal appreciation on behalf of 
those I represent in the United States Congress for all you do, 
both in the acquisition and operational side.
    However, I take the microphone today for the record to 
express a truly troubled point of view over not only what I 
have heard in this hearing, but what I have heard over a long 
series of hearings that frankly----
    Mr. Abercrombie. Eric, excuse me. Can you speak a little 
more into the mike? Lift the mike up a little bit maybe? There 
you go.
    Mr. Massa. I am very troubled. I am very troubled because 
throughout the course of this hearing and the courses of 
hearings that I have had the opportunity to sit it over the 
past several weeks, I have heard, and I will put this as 
candidly and yet as professionally as I can, a series of 
testimonies that can only lightly be described as incredible 
Pentagon doubletalk.
    When I have a series of general officers appear before this 
committee, and I parenthetically tell you that I am not a 
military expert. I am a country guy from western New York 
State.
    But when I continuously hear people tell me that we can do 
more with less, that the number of airframes available to 
afford deployed commanders, that commitments and requirements 
that were absolute just a year ago, can be erased with a fluke 
of a phrase saying, ``We don't need them anymore.''
    That somehow the United States Air Force is willing to say 
we need to upgrade the F-22 fighter, which arguably by the 
testimony of those who have appeared before us is the absolute 
air dominant aircraft today.
    While we are accepting incredible risk in the procurement 
of an airplane that in my opinion and historical analysis will 
tell you will never be delivered along the timeframes currently 
being discussed today, that is the F-35, I scratch my head in 
bewilderment.
    We in the United States Congress are burdened with the 
reality of a long historical knowledge, and while those who 
come in front of us change and rotate and may never come back 
again, we sit here and listen over and over and over again to 
program after program after program, which I guarantee you 
today will not deliver as you have testified this afternoon.
    The F-35 and the numbers at the prices that you have 
discussed today simply will not happen. It won't. And I suggest 
for the record that you know it, and we know it, and the people 
that sent you over here know it.
    And yet last year with equal passion and forcefulness, your 
contemporaries appeared before the people of the United States 
of America and said, ``We absolutely must have this tactical 
airlift aircraft. We absolutely must have a dual engine 
procurement strategy for the F-35.''
    And now, we sit here and we are told ``Well, absolutely 
not. It is not necessary. We are going to do it through some 
incredible force of magic where fewer airframes will deliver 
more ordnance, more combat flexibility and more operational 
capability to the generals and admirals at sea and ashore for 
our forces deployed.''
    And gentlemen, I am sorry. More cows back on my dairy farms 
don't give us more milk. It just doesn't happen that way. If it 
is an issue of funding, then the Pentagon should come before 
this committee as a representative of the people's will and say 
``We are getting shortchanged and we need to document this.''
    If it is not an issue of funding, then someone needs to 
look at me and say, ``You know, we really got it wrong last 
year.'' Blatantly, either out of omission or commission, but by 
golly, how about some straight talk for the American people 
instead of a whole bunch of five-sided Pentagon jargon.
    I just register for the record the fact that I am deeply 
concerned about the veracity of the testimony that I have 
heard, not only at this committee and this hearing, but in all 
of the acquisition hearings. I close my statement and have no 
questions, but it is awful hard for me to take some of this 
seriously at this time.
    Mr. Chairman, I yield back my time.
    Mr. Abercrombie. Thank you, Mr. Massa.
    Mr. Coffman. Mr. Coffman, you can have 1 minute more.
    Mr. Coffman. Thank you, Mr. Chairman. Just a question on 
the Airborne Electronic Attack programs, you may have covered 
this. General Darnell, with the B-52 stand-off jammer program 
cancelled in December of 2005 and without a core component 
jammer program, which was also cancelled this year, how will 
the Air Force compensate for the lack of this capability?
    General Darnell. Mr. Coffman, we look at Airborne 
Electronic Attack as--there are several different elements 
associated with it. We are looking at a concept of operations 
(CONOPS) right now where expandable jammers, which have thus 
far tested very well and have done very well, as in a close 
jamming capability.
    We also look at the fact that the Active Electronically 
Scanned Array (AESA) radars, the electronic scan radars in both 
F-35 and F-22 are going to have the capability to deal with 
that environment as well. We have made a commitment to upgrade 
the EC-130.
    I will be honest with you, that is--my son flies EC-130's, 
so I am painfully aware of all of the challenges that we have 
had with that program, and we are looking very closely to 
ensure that sustainability is met.
    Mr. Coffman. General Johns, what is the long-term Air Force 
strategy for Airborne Electronic Attack?
    General Johns. Sir, it is to continue with the programs 
that General Darnell talked about and look at the balance 
between what can you do stand-off, what do you need to do in a 
penetrating environment, because if you are forced to stand-off 
at greater distances, then is the effectiveness of a stand-off 
capability reduced?
    So we are going through the discussion to say where is the 
trade between penetrating capability for--stand-in jamming 
versus stand-off jamming and that is continuing to go beyond 
what General Darnell has talked about to the future of how we 
migrate the systems from where we are today.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Mr. Abercrombie. Thank you, very much.
    Ms. Giffords.
    Ms. Giffords. Thank you.
    Mr. Abercrombie. To be followed by Mr. Bishop.
    Ms. Giffords. Thank you, Mr. Chairman and thank the 
witnesses today for your service and for being here. As you 
probably know, yesterday we had Secretary Donnelly and General 
Schwartz in our full committee hearing. And I was happy to hear 
about their genuine concern for an issue that I think is 
important to the Air Force, the military in our country, which 
is the transition to renewable energy.
    So I was really pleased to see that we are heading in the 
right direction and the Air Force has certainly been a leader 
in that regard and looking forward to seeing more in terms of 
the successes at Nellis Air Force Base, down in areas like 
Davis-Monthan Air Force Base, AZ (D-M) and Luke, for example.
    But the other area that I was less happy to hear about, and 
I am sorry that Congressman LoBiondo is not here at the moment, 
because he has really been a leader in this area, is the 
fighter recapitalization for the Air Guard.
    This is an issue that many Members of Congress are 
concerned about right now and as you continue to come before 
us, we are going to continue to really press you all to get 
some hard answers. Our Air Guard is really approaching a 
precipice. In the past, the Air Force has told the Guard and 
this committee that there is a plan for fighter 
recapitalization.
    Last week when we asked Secretary Gates, he said we needed 
to wait a few more months and yesterday, General Schwartz asked 
us to be patient. Well, now we have essentially waited several 
years and we have been patient. So have our Guardsmen.
    But I think about the 162nd Air National Guard unit in 
Tucson, which is the largest Air Guard wing in the country. It 
is the largest international schoolhouse for the F-16 and under 
current plans the 162nd will lose its aircraft in just six 
years.
    At 15 of the Guard's 23 fighter wings, the fighter aircraft 
will become unflyable in the next 10 years. And in just eight 
years, 80 percent of all Air National Guard aircraft will 
become unflyable. And looking at that waterfall chart, I am 
sure you have seen it, but I can give you a copy if you 
haven't, it is a pretty scary scenario.
    By 2017, aircraft assigned to Air Guard units in Alabama, 
Texas, Colorado, Iowa and Indiana will all be unflyable. Under 
current plans, the Air National Guard, the sole guarantor of 
our Nation's air sovereignty, will have no aircraft left to 
defend our Nation's 10 largest cities.
    So there is really no ambiguity in these numbers. There is 
no mystery. Given the looming impact of the shortfall in the 
Guard community and the dangers that this gap will have on our 
overall Nation's security, I believe that this issue is too 
perilous to ignore. Secretary Gates last week said that the 
future for many Guard units will be the Reaper Unmanned Aerial 
Vehicle (UAV). And simply, I couldn't disagree more.
    I won't believe that our Air Guard units can defend our 
Nation with an aircraft that cannot operate in its own 
airspace. We cannot perform the defense of our homeland with 
unmanned drones.
    So I am curious if you all can be more precise, if you can 
give us a specific date when we will have the plans, and if you 
can talk, again, very specifically, about the Air Forces' 
vision for recapitalizing and modernizing the Air Guard.
    Not all at once.
    General Darnell. Congresswoman Giffords, our chief spoke 
yesterday about F-22 upgrades. He spoke about the Golden Eagle 
upgrades as well for--and I am talking specifically to Air 
Sovereignty Alert (ASA). Two units of the 18 have upgraded and 
are upgrading to F-22. We have four that will be Golden Eagle 
equipped. We have 15 equipped. And then the remaining 12 will 
depend somewhat on the 35 ramp.
    Right now, we have 80. If we could find the money to get to 
110 it would certainly make that problem a lot easier to solve. 
The Chief also spoke about some of the Guard units are going to 
have to open the aperture just a little bit on missions and I 
think he was just being very honest.
    And I know General Johns has got a couple of things he 
wants to add as well, but in the ASA side of the house, as I 
spoke to in a committee hearing previously, which you attended, 
we and DOD will ensure that combatant commander requirements 
for defense of the Nation are met whether it is with Air 
National Guard aircraft or a combination of active duty.
    That is not the intent right now. The mission is an Air 
National Guard mission and our intent--it is predominately an 
Air National Guard mission. Our intent is to keep it that way.
    General Johns. Ma'am, regarding the recapitalization 
effort, the waterfall chart that you talk about says if I fly 
the aircraft 300 hours a year, by the time it gets to 8,000 
hours that is when we think that the aircraft will no longer be 
useful. And I think that is the genesis of the chart.
    So we are working through that. For example, the Tucson 
unit itself, the Tucson unit is key. Look at all the training 
they do globally. I mean, and as we sell more F-16s to the 
world, their support and importance continues on.
    Now they do some of the training with other nations' 
aircraft. Okay, we understand that, plus we have a lot of 
organic aircraft that are there. So the mission and our 
commitment for them continuing on is there.
    So the question is as we look at the total requirement, how 
do we flow the active duty aircraft to the Guard unit? How do 
we make sure, as General Darnell said, the ASA mission is key? 
We will never defer from the mission and the defense of our 
homeland.
    So we are working through that, but again there are many 
moving pieces as we look at all the different Guard units 
around the country and to see where is the best alignment as we 
go forward to make sure that every morning when they get up and 
they put this Air Force uniform on, that they are proud to 
serve their Nation and proud to serve their Air Force and that 
is what we are striving to.
    And I feel, well because my son is a Guardsman, so I get 
that every night.
    Ms. Giffords. So, General Johns, in terms of a specific 
date when we can really sit down and look at the plan, can you 
give us--you know, you talked about plans that are developing 
and also when I think about whether or not it is feasible under 
any scenario that a contractor can produce or the Air Force can 
procure enough F-35s to fill the needs, I mean is that 
something that we can see in the next couple of weeks? The next 
couple of months?
    General Johns. Ma'am, I would like to if I could make a 
condition. I would like to get through the QDR to see what is 
the national requirement, the Air Force requirement, and then 
come back to you with that overarching, you know, approach and 
then say how does it waterfall and cascade throughout the Air 
Force?
    So I would say in the fall, and I apologize. If I could 
give you a specific date I would, but I don't want to offer 
something and not be able to deliver on it. So it would be in 
the fall.
    Ms. Giffords. In the fall.
    General Johns. Yes, ma'am.
    Ms. Giffords. September timeframe?
    General Johns. Ma'am, probably more toward November 
timeframe.
    Ms. Giffords. Late fall. Early winter.
    General Johns. Yes, ma'am.
    Ms. Giffords. All right. Well, we are looking forward to 
working with you.
    General Johns. Thank you, ma'am.
    Ms. Giffords. This is obviously a very serious issue and, 
you know, we have some patience, but we are kind of running out 
of patience.
    General Johns. Yes, ma'am.
    Ms. Giffords. It is very important. Thank you.
    [The information referred to can be found in the Appendix 
on page 115.]
    Mr. Abercrombie. Mr. Bishop.
    Mr. Bishop. Thank you. I have six questions I would like to 
get through and then one for Chairman Abercrombie afterwards. 
So----
    Mr. Abercrombie. Delighted.
    Mr. Bishop. General, well, I am assuming Darnell, first. I 
want to talk about the 250 planes that will be retired, if I 
could.
    The 388th Wing is one of, if not the first, one of the 
first that was blended with the 419th Reserves. The question I 
have is the primary aircraft authorization (PAA) assumes that 
there will be about 24 planes retired from the 388th in some 
way.
    Was consideration of the integration of the Reserve and--
sorry I am giving this feedback here. Was integration 
considered as you went through coming up with how many planes 
would be retired from that particular group?
    Does this in some way mess up future integration problems 
when you have the chance of taking planes away from a wing like 
that?
    General Darnell. Mr. Bishop, I am not exactly sure what you 
are driving at, but I think we did look very closely at that.
    Mr. Bishop. I guess the bottom line, was integration a 
consideration when you came up with the number of planes that 
would be taken out?
    General Darnell. Yes, it was. And obviously if there had 
been no probability of success, we wouldn't have done that.
    Mr. Bishop. Can I also ask, and this may be going deeper in 
the weeds than at this level we should do. As you are looking 
forward to how you reshape these things, are you gaining some 
flexibility? A retired general said you had to have 24 planes 
in a squadron. It couldn't happen with anything less.
    Are you going to give some flexibility to Air Combat 
Command maybe if the wing lead is to try and say if maybe a 
squadron could be dealt with, with fewer than 24?
    General Darnell. Yes, sir. In fact, we currently have many 
of our units that are 18 PAA versus 24.
    Mr. Bishop. Yes, that would be very helpful because if, for 
example, a squadron was simply lopped and then you had 
deployment. You had a squadron tasked. That would have a 
negative impact obviously on the training ability for those 
kind of wings to do that kind of work. I would hope that that 
would be one of the options that were there.
    As we retire more F-16s who have been carrying so many of 
the sortie missions, are we not putting more pressure on the 
existing ones? We are already well past the design capacity of 
these planes. By having fewer planes out there, are we not 
making those that remain even more stressed as we go through 
the needs of the Air Force?
    General Darnell. Sir, we acknowledge that when you have 
fewer tails that you are going to fly--with the same 
requirements, you are going to fly more hours on the remaining 
aircraft. We have not--at this point we have not reached a 
point where that is of concern to us. We are looking at 
extending the life of the airplane to 8,000 hours.
    Currently, the F-16 was originally designed for four. We 
are going to do fatigue testing, which will start within the 
next year-and-a-half on the F-16 to give us some sense for 
whether we need to, for instance, Service Life Extension 
Program (SLEP) the airplane.
    And there are pros and cons associated with the SLEP. I am 
not saying that is the absolute right thing to do, but we are 
going to start fatigue testing on the F-16s, just as we are 
currently doing on the F-15.
    Mr. Bishop. If I could skip with an unfair question on F-
22s for just a second. If 187 is now the accurate number, was 
there a new study that was found to validate Secretary Gates' 
conclusion that that was the right number or is this a 
byproduct of money?
    General Darnell. Sir, I am not aware of a new study. Mr. 
Ahern may be able to speak to that, but as----
    Mr. Bishop. Maybe--I am sorry. I think you just answered 
the question and you did it very well. And maybe one of the 
things I could tell to Chairman Abercrombie is when Secretary 
Gates was here, we talked about here--he talked about how this 
had to be a zero sum game within the defense budget.
    And cannibalizing another area of defense for another area 
of defense doesn't make a whole heck of a lot of sense. This 
should not be a zero sum game within this particular budget 
area, which was not the question I had for you. The question 
was that wonderful statement----
    Mr. Abercrombie. For purposes of perspective however, I 
agree with you.
    Mr. Bishop. I think we both agree and we both realize the 
problems we are up against in trying to change that. I just 
want to know if wishes were horses, we would all be riding. Is 
that a copyrighted statement? Or is that something----
    Mr. Abercrombie. If wishes----
    Mr. Bishop [continuing]. I could be using?
    Mr. Abercrombie. If wishes.
    Mr. Bishop. That is what I said. If wishes were horses, we 
would all be riding?
    Mr. Abercrombie. Yes.
    Mr. Bishop. So I can start using that or have you 
copyrighted it. I don't----
    Mr. Abercrombie. No.
    Mr. Bishop [continuing]. Want to have to contribute to your 
campaign for----
    Mr. Abercrombie. It comes from my mother, and my mother was 
a very generous-hearted person.
    Mr. Bishop. Gentlemen, I appreciate your service here. I 
also think the Air Force is underfunded.
    Mr. Abercrombie. If wishes were F-22s, we would all be 
flying apparently.
    Mr. Bishop. Then I will pray for more wishes tonight in 
some particular way. Thank you for what you are doing.
    Mr. Abercrombie. Thank you. I am--Mr. Hunter, we have a 
couple of minutes left out of the first round before I get to 
my questions, and I understand you had something you wanted to 
go a little further in and so did Mr. Marshall so we have 
probably got three or four minutes. And then Mr. Kissell gave 
his time away.
    But we will go to Mr. Hunter and then Mr. Marshall. And if 
there is any time left we will give Mr. Kissell a shot, and 
then I have a few questions, and we will go to a second round.
    Mr. Hunter. Thank you, Mr. Chairman, for your indulgence.
    I asked General Schwartz this, and I would like to ask you 
also. AC-130's, the AC-130 gunship that is still what it is 
called right, the AC-130 gunship, when I was in Fallujah in 
2004 the AC-130 would circle, and that would be the time for us 
to go out, resupply the guys, get our own resupply, do whatever 
we had to do because the bad guys just hid.
    They didn't want to be out, and they could hear it. And 
that was it, I mean it was amazing. And as you know it is not 
an every night occurrence that the AC-130 flies for you.
    And I know it is a special operations asset as it is now, 
but I am sure that other units that aren't specialized, that 
aren't necessarily Special Operations Command (SOCOM) or Marine 
Corps Forces Special Operations Command (MARSOC) assets, 
regular Marine Corps infantry units, if there is such a thing, 
they are all fantastic in the Marine Corps, infantry units, but 
there is 10th Mountain, certain Ranger groups, they would love 
to have an asset like that.
    Has it been looked at to provide that asset? Because I know 
that there is money in here to upgrade AC-130 and maybe to have 
more but has it been looked at, to acquisition some more for 
the regular guys so you have enough pilots and you have enough 
aircraft to be able to put them in Regional Command (RC) South, 
for instance, even if a more specialized group in RC East wants 
it, too, at the same time. Or a different agency wants to use 
it? I mean has it been thought about at all?
    General Darnell. Mr. Hunter, I am not aware of any, right 
now of any expressed concern on the part of SOCOM or Air Force 
Special Operations Command (AFSOC) that we don't have adequate 
numbers and can't----
    Mr. Hunter. No, I am saying you have plenty for them. I am 
talking about different war fighters, the ones that aren't 
SOCOM or MARSOC, or more just the regular Marine Corps, regular 
Army. I am talking about them because I have had questions 
asked of me by ground commanders, combatant commanders, ``Wow, 
it would sure be nice to have this.'' If they had one thing--in 
fact, I have asked them ``If you could have one thing what 
would it be?''
    General Darnell. Yes.
    Mr. Hunter. ``AC-130 gunship.'' Or--go ahead.
    General Darnell. Our CONOPs right now with the AC-130 does 
not mean that they are dedicated strictly to SOCOM. I mean it 
is we have a lot of the strictly conventional units, you know, 
and I will speak to Army, quite frankly----
    Mr. Hunter. But they get to use it when the other guys 
aren't if there is not a SOCOM or other agency requirement that 
night then the other guys get to use it. I mean that was the 
position we were in. We got to use it when it wasn't being 
used----
    General Darnell. Right.
    Mr. Hunter [continuing]. Because you didn't have enough.
    Mr. Abercrombie. Could you look into it?
    General Darnell. Yes, sir.
    Mr. Abercrombie. You have got the question.
    General Darnell. We are speaking to the tyranny of numbers, 
and I understand the points you are getting at.
    Mr. Abercrombie. Yes, well, it is a good follow on to what 
Mr. Bishop's point was, is that we are going to have to take 
into account when we make our recommendation, we are going to 
try and do this from the point of view of strategy and 
strategic interests as opposed to budget per se.
    Obviously we are not going to be reckless with that. We may 
have to do reallocations within what we get. We obviously have 
to talk, Mr. Skelton and Mr. Murtha, et cetera, and to the 
ranking members as well.
    But that is what we are trying to get at. We are trying to 
get the right mix, the right way, right now.
    General Darnell. Yes, sir.
    Mr. Abercrombie. And if you could give at least a 
perspective, you are not expected to usurp Secretary Gates' 
prerogatives or anything of that nature.
    [The information referred to can be found in the Appendix 
on page 116.]
    Mr. Abercrombie. We will go to Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman. When Ms. Giffords 
pursued her line of questioning concerning National Guard, and 
I wanted to ask the gentlelady if she would yield me some time 
so that I could jump in, but her time had already expired. And 
so I couldn't.
    The line of questioning reminded me of some conversations 
that I had about four or five years ago with some Naval 
National Guard Air units. And evidently Guard unit was deployed 
to the Roosevelt and conducting missions off the Roosevelt 
along with active duty. And the Navy graded landings, graded 
the performance of the maintenance teams, et cetera.
    And the Guard unit--it should come to no surprise to the 
Air Force guys, and you will hear why--but the Guard unit was 
far and away superior to the active duty units in those 
measurable characteristics. And I think we can all generally 
agree that, typically, a 40-year-old pilot's judgment is likely 
to be better than a 25-year-old or 28-year-old pilot's 
judgment, certainly experience is there. That is generally true 
of Guard units.
    And what really struck me was that these Navy guys were 
saying, ``You know, the Air Force gets this. The Air Force 
understands that a very valuable asset for the Air Force is its 
Guard units, with experienced pilots, experienced mechanics. 
Don't have to pay as much and, frankly, in performance with the 
exception,'' they said, ``of taking Gs, in certain 
circumstances a younger pilot is a better choice.
    But other than that across the board everything you would 
be looking for, and frankly when I fly I kind of like see a lot 
of gray hairs in the cockpit, everything you are looking for 
you get from Guard units, more so than you do from active duty 
units.
    And where, you know, the constant lament where the Army is 
concerned whenever the Army is, you know, this JCA thing or 
other things, the Army will constantly point out that, ``Gosh, 
you know who we have flying our planes. We have got warrant 
officers, and they have got some gray hairs, and they are 
pretty dry behind the ears, and their performance as a result 
is going to be better on average.''
    And so I just add to what Ms. Giffords was saying that Air 
Force doesn't need to lose sight of the credit that Air Force 
has gotten from others over the years, recognizing that a 
valuable asset here are these Guard units with their 
experience, with their crews.
    And also by the way on the Roosevelt trip, the Guard units, 
the maintenance teams for the Guard units were the ones that 
kept all the planes flying. And the Guard units had their older 
planes, they had older platforms, many more hours on them, the 
Guard units were supplying the active duty units with planes to 
fly.
    That is how good they are so we obviously just need to keep 
an eye on that and make sure that we take advantage of that 
asset, the asset of the individuals. That is all I wanted to 
say.
    Mr. Abercrombie. Thank you very much, and well said at 
that.
    Mr. Kissell, did you have something you would like to 
pursue?
    Mr. Kissell. Mr. Chairman, just one question. General 
Shackelford, if you could answer this, to go to a phrase 
earlier discussed, if wishes were F-22s would we wish for F-22s 
that had ground capabilities? Because I had not heard of this 
approach until today as a matter of fact.
    And I am just wondering, are we just looking for a 
justification for the F-22s? Obviously they are a superior 
fighter, are we just trying to find a way to say, ``Okay, we 
are using them for something.'' Is this really a good purpose 
for using them?
    General Shackelford. Mr. Kissell, thank you very much for 
the question. If I may I would like to point out that the F-22 
has had a basic air-to-ground capability from the beginning 
that would be two 1,000 pound bombs carried internally which is 
the mode of operation for the F-22.
    The mission of the F-22 is largely in the air-to-air arena 
but we use the term air dominance. And air dominance goes 
beyond pure air-to-air to countering advanced surface-to-air 
missile systems using weapons like the Joint Direct Attack 
Munition or the Small Diameter Bomb.
    As we have looked at the F-22 as it has originally come off 
the production line, we have wanted to expand its air-to-ground 
capability to bring these newer weapons into play. And this 
results in what I would call a pre-planned product improvement 
program.
    This is what is otherwise called modernization of the F-22, 
which brings in incremental additional air-to-ground capability 
that is tied both to going from the 1,000 pound JDAM to up to 
eight Small Diameter Bombs, with the ability to self-target by 
an upgrade to the radar that allows grand mapping.
    The original radar was optimized for air-to-air. But an 
upgrade to the radar, which allows us to do ground mapping of 
sufficient accuracy that we can self-target these Global 
Positioning System (GPS)-guided weapons. And to go beyond 
simply dropping one at a time to dropping multiples by taking 
advantage of better integration of the avionics.
    So the F-22 uses these weapons in the suppression or really 
destruction of enemy air defense role for the advanced 
Integrated Air Defense System that is optimized to fly against 
with its high-altitude, super-cruise, low-signature 
capabilities.
    So that it can in effect take down some of those higher 
threat systems before other forces come along. So that has been 
part of the philosophy for the F-22 for at least the last seven 
or eight years and is now working its way into the baseline for 
the system through these incremental modernization upgrades.
    Mr. Kissell. Will we able to use that capacity with support 
for our ground troops?
    General Shackelford. That capacity would certainly be 
available for support for the ground troops were it called for 
by the combatant commander. Now the F-35 has similar 
capabilities in larger numbers with better air-to-ground 
sensors optimized for air-to-ground, optimized for more 
persistent air-to-ground role, additional internal fuel, 
additional weapons load, particularly after you get past the 
few days of a high threat conflict into something where you can 
put external stores on the F-35.
    And in effect the F-35 would be the weapons system of 
choice for that type of support of ground forces type of 
mission. But the F-22 would be capable of doing it, too.
    Mr. Kissell. And when would the F-35 be available?
    General Shackelford. The Air Force initial operational 
capability comes along in the 2013 timeframe.
    Mr. Kissell. Thank you, General.
    Thank you, Mr. Chairman.
    Mr. Abercrombie. Thank you, Mr. Kissell.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman very much. I also 
wanted to compliment you on going through your opening 
statement and the detail that you did to help clarify the 
situation we are in. And gentlemen, thank you for being here. 
Thank you for your service to our country.
    I apologize that I had to leave for part of this. I know 
that a couple of my colleagues, Congressman Marshall and 
Congressman Giffords, brought up a topic that is near and dear 
to me. And I apologize if I am covering some repetitive ground.
    But through hearings from Secretary Gates and every 
opportunity we have had, we can't quite get an answer of what 
is going to happen with our Air Guard units if the F-35 slips. 
We have got a QDR coming up.
    We understand that there is a lot that is hinging on that. 
There is always a reason why we can't get an answer. If you are 
looking at a cost benefit analysis, everything I have seen 
suggests that the Air Guard is some of the best bang for the 
buck that the United States of America gets anywhere.
    So we should in fact be doing anything and everything we 
can to ensure that we don't have any slippage. And I just--I 
mean, I don't understand if we have a two- or a three-year 
shift to the right, which is not too farfetched on the F-35 
that what do we do?
    We have Air Guard units that have jets that you can't put 
online because just the airframes can't take it. What do we do? 
When do we get an answer of what the plan is? I don't know, 
General Darnell, if you want to take a shot at that?
    General Darnell. Congressman LoBiondo, I answered a 
question, a similar question earlier to Congresswoman Giffords, 
and I will speak to the ASA portion of this, and I will allow 
General Johns to carry it from there.
    We, obviously as General Schwartz said, we are converting 
of the 18 alert sites, two are going to be F-22 equipped, four 
F-15 equipped with Golden Birds and then the remaining 12 are a 
question right now.
    We are fatigue testing an F-15 and fatigue testing the F-15 
fleet to see if we can extend the airplane out further. We are 
looking at right now 12,000 hours for the F-15 to see if that 
is achievable.
    Some might be concerned about the long drawn issues we had 
before. We are doing inspections every 400 flight hours on the 
aircraft to ensure that we are not getting ourselves in a 
situation that could be just as catastrophic as that Guard 
mishap at St. Louis.
    And thus far, the inspections are not--have not been 
concerning at all. In fact, we are finding we are being overly 
conservative. When we are able to complete the structural 
testing on the F-15 as well as the F-16, which we are going to 
do, and I know a lot of your ASA units, particularly there in 
Atlantic City, are F-16, then our intent is to try to get out 
the 8,000 hours with the airplane.
    We will know how realistic that is after the fatigue 
testing is complete and should be able to at that point, give 
us some sense for whether a SLEP or a combination of SLEP and 
new aircraft are required.
    Now obviously, those answers are going to be a lot further 
out than you would prefer. I know Congresswoman Giffords in 
talking with General Johns, General Johns committed to her that 
we would like to be able to come back to you with a plan by 
November of this year and that is what we intend to do.
    Mr. LoBiondo. Well, I certainly hope so and----
    Mr. Abercrombie. Well, General, I am sorry but that is not 
responsive to Mr. LoBiondo's question. Maybe you will need some 
time on it. What I mean by responsive is to understand what you 
said, I think we all do.
    General Darnell. Yes, sir.
    Mr. Abercrombie. But the question was--is what is your 
plan? Do you have a plan and what is it with--if this F-35 
slippage takes place or any of the other slippages take place 
with regard to the real-time necessities of having the Air 
Guard readiness addressed?
    General Darnell. Yes, sir. And I ended my statement with--
--
    Mr. Abercrombie. Because if you say November, that doesn't 
do us any good with this markup that we are coming into.
    General Darnell. Yes, sir. Well, I will allow General Johns 
to add, but I am not aware of a definitive plan right now.
    General Johns. Sir, regarding the plan, the chart that has 
been used, the waterfall chart----
    Mr. Abercrombie. In other words, what do you want us to do?
    General Johns. Yes, sir. Right now as we go through 2010, I 
am comfortable to say we are going to go through 2010 and be 
okay. There is time for us to effect whatever outcome we need 
to do as we look at the F-35 coming onboard, as we look at the 
aggregate requirement for fighter attack platforms for our 
Nation that the Air Force provides.
    Mr. Abercrombie. But the problem with that, General, is 
that--I am sorry, I am taking a little of Mr. LoBiondo's time 
here but we have talked about this, he and I for quite a bit, 
and we can do this together.
    The problem here is is that we don't have any projection 
from you past next year. I mentioned that in the beginning of 
my remarks, which is the ordinary way that we do this. If fact, 
I think it is legally required of us.
    And what we are expected to--the way Mr. Skelton is 
expecting us to recommend to the full committee is what is 
the--what are the likely requirements that we are going to have 
in terms of funding in numbers, the numbers of airframes and 
funding requirements for the future?
    If we don't have a plan, we can't give it to them. I 
understand what you are saying tactically speaking or budget 
year speaking that, well, we can get through 2010 and then we 
are going to take it up.
    But I can't give Mr. Skelton and the rest of the committee 
that answer. Am I correct, Frank, where we are going?
    Mr. LoBiondo. You are exactly on the mark.
    General Johns. I apologize that we aren't going through the 
rest of the FYDP and that is the situation we are in is----
    Mr. Abercrombie. Is that because of the quadrennial review? 
Every time we don't get an answer, they bring up the 
quadrennial review. This is going to be, I think, my fifth one. 
They are useless. They are utterly useless.
    I came in to this thing when I was a rookie, and I came on 
this committee, I thought, oh, this is going to be a General 
Powell who is going to be a 96 percent--he could have told us 
we were all going to get those horses and wishes would come 
true and everybody would have believed it.
    He had I think a 96 percent approval rating and the other 4 
percent were going to be committed, so he could have done 
anything but that quadrennial review was a bunch of words on 
paper that never went anywhere. And every other one that has 
come in has been the same.
    General Johns. Yes, sir.
    Mr. Abercrombie. I can't go to--really, honestly, we can't 
go to Mr. Skelton and say we are depending on the Quadrennial 
Defense Review, because we would all have to sit here and 
pretend that we thought that was going to mean something.
    General Johns. Yes, sir. So my comment to come back to you, 
and I apologize was----
    Mr. Abercrombie. You don't have to apologize.
    General Johns. Toward November, toward the end of the 
review, we will take whatever information is available to us 
as--and I apologize, doesn't help you for 2010, but then 
formulate that as to what is the best way to go forward to one, 
we insure that we always defend our Nation, two, that we ensure 
that we get maximum----
    Mr. Abercrombie. Well, can you--if you can give us, give 
Mr. LoBiondo and give us your best guesstimate as to what a 
plan would be to address the Guard question, the Guard 
readiness question, then we will try to incorporate it and what 
we will do and make our best judgment on it.
    General Johns. Yes, sir.
    Mr. LoBiondo. Mr. Chairman, if I might just for a moment, 
let me put a little bit different spin on all this than the 
critically important perspective that the chairman has put on 
it. On Saturday, I had an opportunity to go into the 177th. No 
ribbons, no cameras, no hullabaloo.
    There were a group of Air Guard young men and women who 
just, I got together with to answer some questions, just to 
tell them thanks. Again, we were completely--wasn't anything 
that was any media event. And they were an incredibly 
motivating young group of people. The questions that I got from 
more than one, and actually a number of them was, ``Do I have a 
future in the Air Guard?''
    Now, if we get into this territory, and I assured them that 
they did, I don't think the Air Force is prepared to not have 
an Air Guard. And if you have got young people who are so 
incredibly talented, so incredibly motivated that they are not 
doing what their peers are doing on weekends off and playing, 
but they are serving their Nation, and they are questioning 
whether they made the right decision, this is a problem.
    They know some of what is going on here. They don't know 
all the details, and I want to encourage them. I want to thank 
them. I don't want to mislead them. And at some point we are 
going to have something tangible that these young men and women 
can be assured that they have made the right decision.
    And whether it is the 177th that I represent or pick any 
other unit that is out there, that it is critically essential 
to the homeland security of the United States and to the 
national defense of our country, so this is getting down to a 
real personal level. And I did not expect those questions, Mr. 
Chairman.
    I expected some of the other questions, some of the general 
questions, but when they said, ``Gee, we are really wondering 
if we made the right decision, can you assure us?'' So, you 
need to be thinking about this as well as we come up with 
something that I can say to them that is credible. Mr. 
Chairman, thank you very much.
    Mr. Abercrombie. You are welcome. Mr. Marshall has the last 
comment, and then I know Mr. Ahern is looking forward to our 
dialogue.
    Mr. Marshall. Continuing along the same line, sounds to me 
like the Department has decided to retire platforms that 
largely will be replaced by the F-35, that the Department has a 
notion of the ramp-up for the F-35 that may be overly 
optimistic.
    That is certainly the perception we are getting from the 
testimony that we have heard and the comments that we have 
gotten from industry and the history so far with the 
development of the F-35. And Mr. Sullivan would have some 
expertise to be able to comment on that.
    So it sounds to me like the retirement part of this is sort 
of tied to the development of the F-35 on a certain schedule 
and at the moment you are simply not able to answer some of 
these questions concerning the impact of retirement on some of 
these guard units and other matters.
    It seems to me that perhaps we are getting a little bit 
ahead of ourselves with regard to retirement, just as we may be 
getting a little bit ahead of ourselves with regard to actually 
acquiring a whole bunch of these F-35s, in the sense that we 
haven't even finished our development testing.
    But we are certainly getting ahead of ourselves with 
retirement when your testimony is, if I understand it 
correctly, that many of these platforms don't need to be 
retired. They--we can continue to use them for a while. Don't 
know how long. But we are going to go ahead and test and make 
sure they are safe and we can continue to use them.
    So maybe the wiser course here is for you to suggest to us 
how we might, in our bill, not just take what you proposed 
which is the authority to retire 250, but ramp up retirement. 
The idea is that ultimately we will get to 250, but we don't 
get to 250 until you have shown us how there is actually 
feasibly going to be platforms available so that there is not 
an unacceptable interruption in the availability of platforms 
for these Guard units and others.
    In other words, it is not just 250, trust us. It is yes 
250, but it is on a certain schedule that assumes certain 
things about the development of the F-35, failing which, we 
halt retirements so that there isn't a gap that is caused by 
some sort of problems with the development of the F-35 that we 
can't anticipate right now.
    And frankly, what we have heard so far is that the F-35 
development is not going to proceed at the rate that we would 
like to see it proceed. There is history that certainly 
suggests that.
    So perhaps you all could suggest to us some sort of 
schedule that is--where the two are tied together. And I 
frankly think the committee would be a lot more comfortable 
with this and giving the authority to retire if there were a 
link and a stepped-up schedule.
    Mr. Chairman, I thank you.
    Mr. Abercrombie. Yes. You don't have to answer that 
question. That is a suggestion and I would iterate it as well 
that perhaps we can put some language together which will be in 
the bill, not in the report, about this, to be able to address 
that. Thank you, all.
    Mr. Ahern, I would like to take my turn now and go through 
a few things if we can. I have a letter here, which I don't 
believe you have, to Secretary Gates in April with regard to 
the Joint Strike Fighter program and the funding for the 
alternate engine. That is okay, you needn't look for it. I 
don't believe you have it. I am just referencing it for you.
    I suspect it is wandering around in the vicinity of 
Secretary Lynn at the moment, I should imagine. I am not so 
concerned that it--Mr. Bartlett and I sent this letter six 
weeks ago, that it hasn't been answered because of the obvious 
changes that have taken place in the Department with the 
inauguration of a new president and a new--the wheel turning in 
perhaps even another direction at the time.
    However, last year before this subcommittee, then Secretary 
Young committed to us to obligate the authorized and 
appropriated funding for the Joint Strike Fighter alternate 
engine. Contrary to that commitment, and that was a commitment 
and it was commanded, if you will, by the defense bill on a 
bipartisan basis. We don't do things in this committee where at 
all possible on a partisan basis, and I would say that is true 
99 percent of the time.
    Contrary to that commitment, the Office of the Secretary of 
Defense has not released the fiscal year 2009 funding for 
advance procurement. Now as I say, this is a letter, this is a 
copy of the letter which I will be happy to send to you, but 
take my word for it. It is simply asking why advance 
procurement funding had not been released.
    Are you sufficiently aware of the situation to be able to 
say to us today, what is the status of that funding?
    Mr. Ahern. The funding----
    Mr. Abercrombie. We are still in this fiscal year after 
all, and there is still time to get this moving and under way--
--
    Mr. Ahern. Yes, sir. That----
    Mr. Abercrombie [continuing]. Over and above the projection 
for 2010 about the alternate engine.
    Mr. Ahern. Yes, sir. That money was not released because 
there was not procurement funding follow planned for the 
eventual procurement of the engines for which that advance 
procurement was planned.
    Mr. Abercrombie. I was afraid that that was going to be 
your answer. I wasn't trying to trap you, but you realize the 
logic of what you just said. It means that we are not going to 
fund anything that doesn't have exactly that.
    I can see General Johns swallowing hard right at the moment 
because that means you can't do any long-range planning. All 
the rest of what we talked about today, we don't have--exactly 
the same situation prevails for these other platforms.
    Mr. Ahern. By that I mean in for other platforms--or for 
most situations, Advanced Procurement (AP) is followed by or 
there is identified funding in the FYDP, and there was a FYDP 
at that time. There was the fiscal year 2009 FYDP, which was--
--
    Mr. Abercrombie. Nice try, Mr. Ahern, but you understand 
that you don't--we have just discussed here in other venues 
exactly the same situation. Does that mean we shouldn't do--you 
are not going to release funding for any of these other, in 
these other directions?
    Mr. Ahern. I am not sure that the----
    Mr. Abercrombie. You don't have the----
    Mr. Ahern. This is a unique--this sounds like a unique case 
to me, at least at the time that it came up, the AP in 2009.
    Mr. Abercrombie. I will repeat what I said in the 
beginning. ``We have just received the details of the fiscal 
year 2010 budget request. The request did not include any 
information or data regarding plans, programs, or budgets for 
fiscal year 2011 and beyond.''
    There are a number of requests for advanced procurement in 
there. We don't know what is going to be procured. We don't 
know--just what you just said. You said you can't release the 
funding for the alternate engine because we don't have what we 
just don't have for everything else.
    Mr. Ahern. I take your point.
    Mr. Abercrombie. I am not trying to push you in a corner.
    Mr. Ahern. No. Yes, sir. I am not perceiving--I take your 
point, sir.
    Mr. Abercrombie. Okay.
    Mr. Ahern. I was addressing the specific----
    Mr. Abercrombie. If you don't want to do it----
    Mr. Ahern [continuing]. Replacement of the AP 2009.
    Mr. Abercrombie. All I am saying is Secretary Gates doesn't 
want to do it, or Mr. Lynn or whoever, then say so. I don't 
want to have somebody tell me, ``Well, we don't have everything 
worked out in 2011 and beyond,'' and I say, ``We don't have 
anything else worked out for 2011 and beyond either.''
    Mr. Ahern. Yes, sir, I understand that. I was addressing 
the specific case of the 2009 AP for the second engine. I 
understand what you are saying.
    Mr. Abercrombie. Okay, because at some point, we are going 
to have to put this in the bill or something. I would like to 
have the opportunity maybe to sit down with you, if you are 
going to make the recommendation or somebody else, the 
Secretary for that matter, and talk about this alternate 
engine.
    Mr. Ahern. Yes, sir.
    Mr. Abercrombie. I think we can work it out so that it is 
not in addition to and that we are not in a position for 
somebody to win, somebody else has to lose. I think if we look 
at this in terms of some reallocation of funding, some 
reallocation of--or reconsideration of numbers, with regard to 
advanced procurement with the F-35 and so on, that this could 
be worked out on a reasonable basis.
    The thing that drives me in this is the GAO--does everybody 
have the same material we have? I have got the--anyway, we 
can--I will provide them to you. Okay, you do have the backup 
slide here. This is the F-15 and Joint Strike Fighter engine 
programs compared in terms of this engine difficulty that 
occurred and the timeframe.
    I mean, when I look at this, it makes my heart beat faster 
because I don't want to chair or recommend to the subcommittee 
or the full committee funding and policy that I have 
trepidation it is not going to be able to be fulfilled.
    That is why we are trying to do the alternate engine or the 
competitive engine. We are not trying to get into a contest of 
wills with the Secretary, or most certainly not with the Air 
Force. We are trying to make this succeed.
    I hope it is clear that the motivation here is to make sure 
that you get the Joint Strike Fighter that you want to have in 
all of its permutations, all of its iterations, if you will, 
that works and that maximizes the opportunity for it to work in 
a timeframe that, in turn, maximizes your opportunity to carry 
out its strategic requirements, the long-term necessities that 
you have outlined for us.
    The amount of money is not that great comparatively, and if 
we work this right, I think we can do this and still 
accommodate everybody. As we are well aware, the numbers change 
all the time. Two hundred and thirty-one becomes 187, you know, 
98 becomes 38, or 92 becomes 38, that kind of thing.
    So I am just putting on the table for your consideration, 
that let us not get off into arguments about definitions of 
advanced procurement funding and so on. Let us figure out how 
we can do this. I believe you are going to find a very strong 
school of thought in the Congress for funding the alternate 
engine. Let us not make this barbed wire that people have to 
throw themselves on. Let us talk about it in a way to see 
whether we can accommodate everybody's interests.
    The fact is that about almost 70 percent of the alternative 
engine development cost has already been obligated, and I think 
it is worth the investment, and I hope that the Secretary will 
give us the opportunity to perhaps have a little discussion 
about whether or not that makes sense.
    I can send some other questions on to you, but in that 
context, then maybe I can ask General Darnell and General 
Shackelford--this is not news to you about the ``Great Engine 
War'' and so on. I take it you are all familiar with it, right?
    General Darnell. I am familiar with it, yes, sir.
    Mr. Abercrombie. Did you have to go through some of it 
yourselves?
    General Darnell. We both were flying at the time. I was 
flying F-15s at the time.
    Mr. Abercrombie. Okay, so is my--I hope you will agree that 
my recitation, my summary recitation of what happened during 
the 1970's and so on was correct. I am not trying to create a 
myth here. That is the information I have is that these 
difficulties were encountered. And I am not saying that it is 
necessarily an analogy, but it is a parallel situation I want 
to avoid if I can. That is the reason.
    Were you involved when the F-15 engines had to be shuttled 
around because of the readiness problems and the maintenance 
problems?
    General Darnell. Mr. Chairman, I was flying F-15s at the 
time when that was going on, yes.
    Mr. Abercrombie. Okay. In terms of long range or maybe, 
General Shackelford, you are the more appropriate person to ask 
here, in terms of acquisition cost. Has the general recitation 
here about acquisition cost increases reflect the realities 
that you have encountered? Are those numbers real?
    General Shackelford. And sir, you are referring to the cost 
of the engines?
    Mr. Abercrombie. Changes--yes, the cost changes and so on 
with regard to the F-35 over and above the engine?
    General Shackelford. Yes, sir. What I would like to comment 
on, sir, with respect to the engines is that the comparison of 
cost increases for the F135 versus the F136, not really an 
apples-to-apples comparison. As you are aware----
    Mr. Abercrombie. I am sure they are not.
    General Shackelford. Right.
    Mr. Abercrombie. I didn't--if you thought I was making an 
apples-to-apples comparison I apologize. That was not the 
intention.
    General Shackelford. Yes, sir, I understand. Just to point 
out that there are other items in the F135 funding line that 
aren't directly part of the engine technology itself, the--
    Mr. Abercrombie. Yes, that is right.
    General Shackelford [continuing]. Common equipment, the 
common exhaust system and whatnot, which is part of that cost 
increase, as well as the redesign on the aircraft as a result 
of STOVL weight problems here a few years ago.
    Mr. Abercrombie. Yes.
    General Shackelford. As we look at----
    Mr. Abercrombie. I am well aware that the weight problems 
created its own--you can--I can draw a parallel there to the 
Presidential helicopter.
    General Shackelford. Yes, sir.
    Mr. Abercrombie. Just weight problems alone caused--which I 
don't know, as a layperson I certainly anticipated. I can say 
that with some authority, because I got the transcript out of 
even our closed briefings and closed discussions that we had, 
to make sure I wasn't dreaming up that, oh, yes, I knew all 
that or I brought that up, and then it turned I was dreaming 
that I did or only wished that I had said it.
    But even to myself, not an aeronautical engineer or a 
pilot, it was clear to me, you start changing the weight around 
in some significant way, you are going to change everything 
that has to do with design and flight testing and everything 
else because it changes the physics.
    General Shackelford. Yes, sir.
    Mr. Abercrombie. Okay. I will send you some questions, 
General Shackelford, if it is okay, with regard to your 
prepared statement on the cost of the alternate engine through 
fiscal year 2015, because there are some differences that 
occurred there--I mean from information we got in the past--so 
I am trying to get an accounting for that, okay?
    General Shackelford. Yes, sir.
    Mr. Abercrombie. Take a look at it, so that I have the 
right numbers in mind. Right now, just for background 
information, there is three flight test aircraft delivered to 
date. If you have different information, you stop me, okay.
    Three flight test aircraft delivered to date, 10 flight 
test aircraft in the works, 28 production aircraft authorized 
and appropriated through fiscal year 2009, and 30 aircraft in 
fiscal year 2010 request, 10 for the Air Force; is that all 
accurate?
    General Shackelford. Yes, sir, that is correct.
    Mr. Abercrombie. Okay, very good.
    General Shackelford. I am sorry, sir, did you say all for 
the Air Force, the 30?
    Mr. Abercrombie. Ten.
    General Shackelford. Ten of them are for the Air Force.
    Mr. Abercrombie. Ten, right.
    General Shackelford. Yes, sir.
    Mr. Abercrombie. Okay.
    General Shackelford. Thirty total.
    Mr. Abercrombie. Mr. Sullivan, you were inches from a clean 
get away, the Joint Strike Fighter procurement plan including 
the international purchases would increase--would--can these 
numbers be correct? Would increase from 17 to 32 aircraft from 
fiscal year 2009 to 2010? Is that--are you familiar with that 
number? Does that make sense to you?
    Mr. Sullivan. Fiscal year 2009 to 2010? Yes, that is 
correct, sir.
    Mr. Abercrombie. Okay. I am looking for some flexibility 
here as we go forward in terms of possible reallocation of 
funding. To the best of your judgment, Mr. Sullivan, and the 
best of your capacity to answer, is there an industry or 
government standard regarding preferred year-over-year 
increases in production and what factories affect the preferred 
rate of increase?
    Mr. Sullivan. In terms of--you are referring to the speed 
in which they ramp up their production rate?
    Mr. Abercrombie. Yes, is there some kind of formula that 
you----
    Mr. Sullivan. I don't know of any. I don't think there is 
any industry standard or anything like that, but there are 
formulas that they use that are based on learning curve 
analysis.
    And I think that on the Joint Strike Fighter program 
probably the learning curves were more steep and are less steep 
now, as they reexamine where they are in the program, because 
they don't know as much as they thought that they would know at 
this point, I guess, is kind of a rambling answer but that is 
the best way I can say it.
    Mr. Abercrombie. Would that have something to do----
    Mr. Sullivan. They miscalculated the learning curve at the 
outset, and they have adjusted them now, and as a result they 
are getting a lot of cost increases due to, you know, they are 
having to add labor hours to the estimate.
    Mr. Abercrombie. And this is not beyond normal expectation 
right?
    Mr. Sullivan. No this is not----
    Mr. Abercrombie. This is not an easy deal.
    Mr. Sullivan. It is not an easy deal.
    Mr. Abercrombie. I made an analogy today, again, in 
layman's terms, I mean this is not a simple V8 engine. You 
know, put in the 1955 Chevy right? This is a V12 with a whole 
computer set.
    Mr. Sullivan. That is correct.
    Mr. Abercrombie. To have to be dealt with right?
    Mr. Sullivan. Yes, sir, in fact if you wanted to make--if 
you wanted to compare it to the auto industry or something, the 
auto industry or some industry that is high volume pretty much 
knows what they are doing.
    They have learning curves as well but it is based on 
really, you know, actual data, and they don't change much so 
they can do learning curve analysis, figure out what the first 
one is going to take to build, figure out what the millionth 
one is going to take to build because they know what their 
learning will be----
    Mr. Abercrombie. See compared to the F-15 this F--the Joint 
Strike Fighter is an incredibly more sophisticated, and the 
demands on this airframe are going to be infinitely greater.
    Mr. Sullivan. Yes, I think one of the points that we have 
been trying to make the past several years and are making again 
this year, is that the Joint Strike Fighter is so complex that 
those learning curves are harder to come by.
    Mr. Abercrombie. Sure.
    Mr. Sullivan. You know, one of the beauties of the F-15 and 
the F-16 was that they were kind of an incremental approach to 
developing the aircraft. They bit off a little bit of 
capability at a time so their learning curves were much steeper 
than what the Joint Strike Fighter is.
    The Joint Strike Fighter has well overestimated from the 
outset how much learning they would accomplish at this point.
    Mr. Abercrombie. So in that context then you were critical, 
others were critical of the management plan approved in 2007 
which reduced the Joint Strike Fighter development flight tests 
in order to replenish the management reserves.
    You raised concerns about the cutback in flight testing, 
and implications for finding and resolving those performance 
problems. I think you have already stated some of the specific 
concerns that you had with the plan and the time.
    How do you regard that now? I think you have stated it in 
general terms but how do you regard the question of flight 
tests, assets and planning right now with regard to the time 
table for that that at least is implied in the 2010 proposal 
with regards to increase production, et cetera?
    Mr. Sullivan. We--right now we think that the mid-course 
risk reduction plan that they undertook last year, that the 
schedule as a result of that and where they are today is still 
is very risky.
    If you look at the test program itself, flight test, no 
white space in there. There is no room for error. There is very 
little time to do the flight testing, bring the data back, do 
the analysis, discover, trial and error, things like that.
    They have a--it is a very, very aggressive schedule now to 
complete flight testing and they have reduced--of course they 
have reduced the resources that they were going to have by two 
aircraft.
    Mr. Abercrombie. General Johns, what is the reason for 
that? Why? What is a necessity is it because numbers were put 
on paper years ago or that there is some--is it policy driven? 
That we want to get this in the air so--we want to get it to 
our people, and so we just write down the number and say well, 
we are going have to do that?
    Why not take longer to do the testing or build that in? You 
are the long-range guy that is why I am asking you.
    General Johns. Yes, sir. As we look at it I am going to 
defer this to General Shackelford because it is part of the 
acquisition strategy, but how do you manage----
    Mr. Abercrombie. He was just looking at you by the way, 
saying I hope he defers this over to me. I can't wait.
    General Johns. We are dear friends, but sir, again the 
whole point is how do you manage that as you said the white 
space, the concurrency to come up with a successful program? So 
let me go----
    Mr. Abercrombie. The point, the reason I am asking it is in 
some of--maybe you folks don't know me as well, but we are not 
looking here to trap anybody or anything we are just looking to 
be--how can we be helpful and make it work?
    And if you are told, you know, something we really wanted 
to do this, and we really had our hearts set on doing this but 
you know what? The schedule is working out differently because 
getting a hold of the physics of this thing and the testing 
patterns and so on this is not a--this is not a Model A Ford we 
are dealing with, and we are going to have to take more time.
    Nobody is going to get upset with you. We will just have to 
figure out how we do this and get appropriate funding. Am I 
making sense?
    General Johns. Yes, sir and before I defer to General 
Shackelford, but as we tested the F-15 again we had technology, 
we had an industrial base----
    Mr. Abercrombie. Yes, right.
    General Johns. And it has since moved along so to say well 
this is more sophisticated, but so is our industrial base and 
the ability to handle it. So I can't say, you know----
    Mr. Abercrombie. Okay. Fair enough.
    General Johns. Here is some growth in that area.
    General Shackelford. Sir, if you will indulge me for a 
second I will go back a little bit----
    Mr. Abercrombie. I will.
    General Shackelford [continuing]. In history to when we 
were starting out with the F-35 program there was an 
understanding there was going to be a great deal of concurrency 
in the program.
    Typically that comes along as you balance the needs of the 
test program versus the contractors' need to man up to a 
certain level and then have efficiency within their manning 
that goes from building developmental aircraft into production 
aircraft and that is often what leads to several annual buys of 
low rate initial production as you are trying to move into the 
production profile that you would like to get to.
    Within the context of looking at the F-35 as the 
recapitalization focus for the various more legacy weapon 
systems, in order to bring that weapon system on quickly the 
desire has been to ramp quickly up in the production profile 
such that we could come down whatever learning curve exists.
    Also, to reach a more economic order quantity, if you will, 
to get the unit cost down as we are buying them from year to 
year. So there are competing pressures to complete that 
development and at the same time get into production.
    To mitigate that type of concurrency on the F-35 program a 
great deal of upfront investment was made in design tools for 
instance such that we have at this point in time a greater 
level of confidence in the design of the aircraft than we would 
have for legacy systems go back to F-16 or F-15 days.
    As we look at where we stand in production right now the 
change traffic is stabilizing. The build process as noted by 
Mr. Sullivan has found some issues, not the least of which came 
along when the issue of the design of the wing root was 
discovered to be an issue a couple of years ago and led to a 
redesign.
    But as we have gone through the last six months or so of 
getting these aircraft stabilized into production, and these 
are the development aircraft, we are seeing a greater level of 
maturity, a better level of fit as the parts go together.
    The maturity of the physical aircraft gives us reason to 
believe that we are going to get beyond the production issues 
cited by Mr. Sullivan fairly quickly.
    Mr. Abercrombie. Okay.
    General Shackelford. When you move over to the software 
side about 74 percent complete for the entire weapon systems 
software at this point in time with the sensors and that 
software flying on the cooperative avionics test bed.
    Or in the, granted, very elaborate laboratory 
infrastructure that was put together for the program, also that 
we could have greater confidence earlier that moving forward 
with production would be a reasonable risk.
    In the annual production buys as we go through the low rate 
initial production the program has to meet certain entrance 
requirements that are entrance criteria that are established by 
the defense acquisition executive.
    These would be key things that he doesn't give them 
permission to press ahead with the negotiation of the contract 
for the next production lot unless they have chinned the bar, 
so to speak, on certain technical characteristics, the STOVL 
engine would be an example of that.
    That was part and parcel of that delay, but got us to the 
point where the confidence of those who are closest to the 
program is high enough that they believe they have reasonable 
risks in terms of pressing forward with the further work in 
that area.
    So the whole program was built with that philosophy in mind 
and that sets it aside really from legacy programs realizing 
that those legacy programs are 30 or 40 years ago, that the 
state of the art in technology now is better. Certainly there 
is risk, but to the extent that we can identify where that risk 
is and do the best we can to mitigate it, that is folded into 
the program plan for F-35.
    Mr. Abercrombie. That is fine. Thank you. Mr. Sullivan, in 
your statement you highlight the--what I presume is still a 
fact, that the DOD plans to use cost reimbursement type 
contracts for the procurement of the production aircraft. Is 
that still the case?
    Mr. Sullivan. All right, I believe the Department strategy 
is still to--the aircraft that have been procured so far are 
under cost reimbursable and I think it would go as much as 273 
aircraft through Lot 7, whatever that is I believe that is on--
--
    Mr. Abercrombie. That is your understanding, Mr. Ahern?
    Mr. Ahern. No, sir, it is not. I work very closely with 
General Shackelford and the rest of program office, and I am 
quite confident that we will be moving toward fixed price 
incentive fee contracts in Lot 5 or no later than 6.
    I can't amplify very well on what General Shackelford has 
said about the way this program is run, and I don't want to 
give you the impression that I sleep well every night knowing 
nothing else is going to happen to the JSF.
    But there are really good indicators of this carefully 
orchestrated program that was based on that upfront investment 
that really focused on very sophisticated design tools and 
modeling.
    And an example of that that comes to mind is as Mr. 
Sullivan said the STOVL has just finished the pit test, and is 
en route, and will be en route to Pax River to actually go 
through the landings. That pit test turned out to be just 
slightly better than the model. No issues with it at all, that 
is in the--with the engine down, and that is a real credit to 
the model.
    There is another example of it. They have just finished 
some of the static testing on one of the ground aircraft, and I 
believe the phrase is it was going to 150 percent of its 
design, and it turned out to go to where the model said it 
would be.
    The three aircraft that are flying now, the last time I 
asked anyway, they are running about 75 percent returning to 
the ground without any discrepancies on them at all. So in 
comparison to my experience, and just to put it in context, I 
was a naval aviator in the 1960's and the 1970's and in the 
1980's.
    Mr. Abercrombie. Yes.
    Mr. Ahern. We didn't have anything comparable to this. It 
is not to say that we don't have challenges in the JSF going 
forward, but the rate that we are on, and as I pointed out the 
Secretary, just did add aircraft to the plan going forward.
    The rate that we are using going forward year-over-year is 
.75 more, which seems to be an achievable rate that goes to 
what General Shackelford and General Johns said. We want to get 
down the learning curve as fast as we can, and we are 
progressing in that fashion because I checked this.
    I mean that is one of my jobs. They will ripple out one 
cost or pull out two costs or pull out three, and our challenge 
is to the program and to Lockheed Martin to bring those costs 
down, and it is happening.
    And we will continue on that line but to follow--to answer 
the first question no, sir, we are going toward fixed price 
incentive probably in Lot 5 or Lot 6.
    Mr. Abercrombie. Okay.
    Mr. Ahern. Well, if----
    Mr. Abercrombie. With regard--I am sorry.
    Mr. Sullivan. If you--if they are going to a fixed price by 
Lot 7 that would be at least 273 aircraft that they are going 
to procure in a cost reimbursable environment. When you procure 
aircraft in a cost reimbursable environment it is tacit 
acknowledgement, if you will, that they don't know how much the 
aircraft are going to cost. That means they could not negotiate 
with the contractor a fixed price.
    Mr. Abercrombie. So from a financial point of view, 
accountability point of view then it is we who assume the risk 
there.
    Mr. Sullivan. But as the government assumes all--most all 
of the financial risk on that and the--this is not uncommon in 
Low Rate Initial Production (LRIP), you know, you can buy under 
cost reimbursement as many as 10 percent of an aircraft buy.
    However on this program, the only reason we raised this is 
because 10 percent of this program is a significant number of 
aircraft that, you know, not only do you not understand the 
cost yet but they have not been flight tested.
    You have got two percent of the flight tests done, and we 
understand that the program has done a significant amount of 
work to reduce risks in ground testing and with all of the labs 
they have. And we applaud that, and we think that that is good, 
but flight testing is flight testing.
    Mr. Abercrombie. It has also been paid for.
    Mr. Sullivan. It is on--it has also been paid for. That is 
right.
    Mr. Abercrombie. One of the reasons that has taken place is 
that it was funded.
    Mr. Sullivan. That is right.
    Mr. Abercrombie. To do exactly that.
    Mr. Sullivan. And it has reduced risks but we still believe 
you fly before you buy.
    Mr. Abercrombie. Yes.
    Mr. Sullivan. So you are in a position where you have as 
many as 300 aircraft that the government is going to take 
ownership of--no idea how much they are going to cost and 
whether they are going to work.
    Mr. Abercrombie. I don't necessarily even object to that by 
the way. I am not citing that as if that is some kind of a 
showstopper for this. That doesn't necessarily bother me 
because if it is the defense of the Nation, and you get what 
you want to get out of it, then maybe that is the price you 
pay, so that doesn't necessarily disturb me.
    But can I ask, then, any of you or perhaps Mr. Ahern, I am 
sorry, do you want to take----
    Mr. Ahern. Yes, sir, and I don't want to be argumentative 
with my friend, Mike.
    Mr. Abercrombie. I don't know whether you heard what I said 
that I don't necessarily object to that. I am not raising the 
cost reimbursement. Maybe--that is fine with me if that is what 
it takes in order to get the plane done.
    Mr. Ahern. I think it is very important that we get the 
fixed price contracts. It is in a--not only in this program, 
but in every program in our portfolio----
    Mr. Abercrombie. When you can.
    Mr. Ahern. As soon as you know well enough on the cost----
    Mr. Abercrombie. Yes.
    Mr. Ahern. You need to yes, sir, and I think----
    Mr. Abercrombie. Sure.
    Mr. Ahern [continuing]. By Lot 5 and that is--I apologize 
for whispering behind me.
    Mr. Abercrombie. No, no, it is all right.
    Mr. Ahern. I was just thinking the 270 number and I think 
we will be in the fixed price for the jets and the 135 around 
Lot 5.
    Mr. Abercrombie. Okay. Even so it is a considerable amount 
of money. Yes, sir?
    Mr. Sullivan. Just briefly, I mean this was one of the 
recommendations that we made in our report in March was----
    Mr. Abercrombie. Yes. Yes.
    Mr. Sullivan [continuing]. That they report to the Congress 
the--they have to analyze the risk that is involved here and 
write a report that shows their path to getting to a fixed 
price contract.
    Mr. Abercrombie. Right.
    Mr. Sullivan. You know, we share your opinion on that. It 
is not necessarily in and of itself bad. It is an indicator 
though that this program's costs are still not yet----
    Mr. Abercrombie. If in order to get it right, yes, if in 
order to get it right it requires cost reimbursement that is, 
you know----
    Mr. Sullivan. Yes.
    Mr. Abercrombie. You present--you are the professionals. 
You are the ones that have to make those recommendations, and 
your people have to fly these planes. I mean in the end human 
beings are going to be doing the testing, and you have the 
responsibility for putting them into those planes along the 
way.
    And nobody wants to be reckless about it. In some respects 
the reason I am--this is a predicate to what I want to say 
about or ask about the competitive engine. What is your 
assessment of the competitive engine over and above whether we 
should have it or not. What is your assessment about the 
progress of the competitive engine?
    Is that also making progress?
    Mr. Ahern. Yes, sir, from what I understand it is making 
progress. It is----
    Mr. Abercrombie. It is not an orphan in other words?
    Mr. Ahern. No, sir it is not an orphan.
    Mr. Abercrombie. You guys are paying close attention to it?
    Mr. Ahern. Absolutely, because you all--the Congress has 
appropriated a significant amount of money, and we have put a 
significant amount of money into the 136 engine, and it is 
absolutely making progress.
    Mr. Abercrombie. Okay. So----
    Mr. Ahern. And it is not an orphan.
    Mr. Abercrombie. Right. So, okay, my point here, I guess, 
would be as you move toward the time when you can get a fixed 
cost, because your confidence level is that high, I am hoping 
that you will conclude or that the Secretary will conclude that 
perhaps if we continue along with the alternate engine it is 
not an expense which is excess, and it is one that is 
reasonable within the present cost reimbursement universe as we 
move toward something fixed.
    Just appreciate it if you would take it into account and 
perhaps take another look? That is the----
    Mr. Ahern. Yes, sir, and I take that responsibility 
seriously.
    Mr. Abercrombie. I am sure you do.
    Mr. Ahern. It is part of my job and right now--because it 
was involved in the 2007 study and familiar with what the IDA 
did and the Cost Analysis Improvement Group (CAIG) study and of 
course the GAO study.
    And I looked at it again this year. Not only for this 
hearing but in the budgeting since--overall, and it remains, 
although there has been additional investment in that second 
engine, the compelling business case to make that upfront 
investment to garner the benefits down in the competition area, 
down in the intangibles, is still not there, sir, that I can 
see.
    Mr. Abercrombie. Well, and I appreciate that. Although 
you--and by way of full disclosure I have never--I have said 
publicly and privately in many contexts that a business case, 
per se, in the ordinary understanding of what a business case 
is doesn't apply where defense is concerned. And that is not a 
criticism of what you just stated, so much as it is a 
perspective that I hold.
    I believe the people of the United States will pay for 
their defense, and if that requires--precisely because it does 
involve the strategic interests of the country, as well as the 
military personnel expected to carry out the necessary 
requirements of implementing that--those strategic interests or 
their pursuit.
    If that takes more funding than it would to build a city 
bus, or for that matter a commercial airliner, as opposed if 
something--if an airframe or an instrument of the Air Force 
requires more spending in order to maximize our capacity to 
produce what we want to produce, I think we are willing to pay 
for it.
    So I never--at least in my own approach to this committee, 
I have never tried to operate as if it was my dad's food 
brokerage business writ large. It--I believe that there is 
another element to it with regard to our obligations, our 
constitutional obligations as a committee to fund the military 
of the United States that may involve expenditures that under 
ordinary circumstances General Motors or Chrysler, if they are 
still in business, would be doing.
    So I understand what you are saying, but from a policy 
perspective it may be that I ask you once again then, that that 
is not necessarily the first consideration that I have in my 
recommendations. I think what we are doing, or our attempt 
here, is to supplement and complement what you are doing, and 
that that was in line with what the Air Force had in mind, at 
least through the first 10 years of this project's existence.
    And there is a feeling, or a thought, in the committee that 
the change from having the alternate engine as part of the 
budget picture had more to do with budget considerations than 
it did with strategic considerations, or even requirements and 
acquisition considerations that was part of the driving force.
    You know, you don't have to comment on that one way or the 
other. I am just giving you an observation that has reflected 
in the opinions that I get from members in the committee. So I 
have my constituency here also that I have to address.
    The bottom line for all of us is, is we want to provide the 
best possible foundation financially and, in terms of defense 
policy as written in the defense bill, for you to be able to 
carry out your very important mission, which I know all of you 
are completely devoted to.
    Mr. Bartlett, you are the, as usual, the essence of 
patience and forbearance. At this stage do you have anything 
else? Or I think we can bring the events to a close.
    Mr. Bartlett. Mr. Chairman, I would like to spend just a 
moment if I might to help clarify for those who might be 
listening to this hearing or reading it in the future, as to 
why we, in a budget-constrained world, have been pursuing the 
development of two brand-new fighter aircraft.
    Could you tell us for the record the fundamental 
differences between the Joint Strike Fighter and the V-22 that 
made it seem necessary that we--I am sorry, the F-22, made it 
seem necessary that we develop both of these planes that may 
not be clear to the casual observer?
    General Darnell. Mr. Bartlett, I will take a stab at that. 
Sir, the F-22 is designed, really, to be our air dominance 
aircraft when you compare the two. It has an air-ground 
capability and quite frankly----
    Mr. Bartlett. By air dominant you mean that it could 
contend in a aerial fight with the best aircraft in the world?
    General Darnell. Not only that, sir, but it can--it is also 
designed to penetrate IADs--an Integrated Air Defense System.
    Mr. Bartlett. And why is it better than the Joint Strike 
Fighter in doing that?
    General Darnell. Sir, it is primarily because of its speed 
is the biggest reason.
    Mr. Bartlett. Its speed would enable it to outrun missiles 
that were fired at it?
    General Darnell. Sir, if you choose to disengage from a 
target area, yes, it allows you to do that.
    Mr. Bartlett. And how about altitude?
    General Darnell. It can super cruise at very high altitude, 
which the F-35 cannot. Now, when you look at the F-35, though, 
I think General Shackelford really covered it pretty well 
earlier. I mean it is meant to be persistent in a battle area. 
It has got sensors on it that the F-22 does not for air-to-
ground. That is what it is designed to do. It is an exquisite 
platform that has capabilities that the F-22 doesn't have.
    Mr. Bartlett. Where in the world might we need the 
increased air dominance of the 22, certainly not in Afghanistan 
and Iraq?
    General Darnell. No, sir. It is designed for a high-end 
scenario. It is designed for a major combat operations that 
might involve peer competitors.
    Mr. Bartlett. Who in the world builds aircraft that are 
competitive with the Joint Strike Fighter and the 22?
    General Darnell. At this point, no one.
    Mr. Bartlett. The--a recent Secretary of the Air Force, 
Secretary Roche, told us that the best fighter aircraft in the 
world was the latest SU version, and I think there has been one 
since then.
    General Darnell. Sir, the--he may be speaking to the SU-35. 
I am not sure what he is speaking to----
    Mr. Bartlett. That is the number? Okay.
    General Darnell. Yes, sir. Which does not have the stealth 
characteristics; it is not even close. Now, both the Chinese 
and the Russians are working on a fifth, what we call a fifth 
generation aircraft with the stealth characteristics that we 
have in F-22 and F-35. There--is it still--and I would have to 
bring one of my intelligence folks in to give you an accurate 
estimate, but in my opinion they are not close to fielding 
either one of those aircraft yet.
    Mr. Bartlett. So in terms of penetration, we still are 
dominating. What about in terms of speed and maneuverability 
and----
    General Darnell. In terms of speed and altitude we are 
still dominant. In terms of maneuverability I think, quite 
frankly, with the SU-35 the margin is closing, but the F-22 is 
still a much more agile and maneuverable aircraft.
    Mr. Bartlett. The 35 is a competitive aircraft? Some would 
say in some respects a superior aircraft. That is what the 
Secretary told us. He was wrong?
    General Darnell. Sir, he may have been alluding to our 
fourth generation capability in our current F-15 fleet. 
Frankly, I think it is equal or superior to that aircraft.
    Mr. Bartlett. Okay, so until the 35 and 22, the Russian 
plane was probably superior?
    General Darnell. Yes, sir. At least equal or superior.
    Mr. Bartlett. Okay. And they are now developing a new plane 
that will again challenge us for the next generation.
    General Darnell. That is under development, yes, sir.
    Mr. Bartlett. Okay. Thank you very much. That would be 
interesting, Mr. Chairman, to get on the record why we should 
be developing in this budget-constrained world two fighter 
aircraft.
    Mr. Abercrombie. When you say the Russian plane, if I can 
follow just for a moment, the Russian plane and/or the Chinese 
variation, in what way--what do they mean by a next generation 
or fifth generation, whatever generation it is for them, is 
that in terms of speed, in terms of distance that it can fly, 
in terms of maneuverability, what--on all fronts?
    General Darnell. Yes, sir. If they were to build a fifth 
generation compatible or comparable aircraft, they are striving 
to have the same capabilities we do with our fifth generation 
capable aircraft, so speed and stealth being the primary 
attributes.
    Mr. Abercrombie. What about distance? What distance can 
they fly, and how do you differentiate the, by the way, the F-
22 and the F-35?
    General Darnell. The SU-35, which is not one I consider 
fifth generation, but it is the best they have got, has a range 
which exceeds our current F-15 and F-16 fleet. I think it would 
be--I think the range would be comparable with our fifth 
generation aircraft F-22 and F-35.
    Mr. Abercrombie. When we say range, by the way, I want to 
make sure does that depend on whether--how much fuel is being 
used? What is being required of the plane? I mean if it is one 
thing that just goes up in the air and flies as long as it 
can----
    General Darnell. Right.
    Mr. Abercrombie [continuing]. That is different than going 
up and maneuvering.
    General Darnell. Right. And internal capacity, I mean, they 
build very large aircraft. Their fighter aircraft tend to be--
have gotten bigger over the years and their internal capacity 
has increased as a result.
    Mr. Abercrombie. So, with that projection, the F-22, now, 
if there are things you can't talk about just say so.
    General Darnell. Yes, sir.
    Mr. Abercrombie. But again, because this is for the record 
as Mr. Bartlett says and so people can understand it, then 
finally does the--compared with what they are doing how do your 
projections of what you think you can talk about with regard to 
either the Chinese or the Russians or whoever it may be, how 
does the development projected as you understand it compare to 
the F-22 and the Joint Strike Fighter?
    General Darnell. The----
    Mr. Abercrombie. Presuming the Joint Strike Fighter is able 
to succeed in all its iterations?
    General Darnell. Yes, sir. I think quite frankly, sir, and 
again we can have our intelligence folks come over and talk to 
you----
    Mr. Abercrombie. That is a separate issue. I am asking you 
professionally in terms of what you think those planes can do.
    General Darnell. Yes, I don't--as far as their fifth 
generation capability, they are probably double-digit years 
away from equaling our capability.
    Mr. Abercrombie. Okay. The reason I go into that in some 
detail, just to amplify a bit Mr. Ahern, that is what I meant 
about the business case. I don't think that this is a business 
case. I understand why the Secretary might want to make that 
point or you would make that point because you are trying to be 
prudent with dollars.
    I mean that is--I take that as a given. I don't think that 
our people in the Pentagon that are profligate in that regard 
and don't show any concern in that respect. And perhaps some of 
the arguments that have been made in public or with regard to 
particular platforms in the past because there have been 
failures or missteps or a combination of these factors, where 
it made it seem there was waste or indifference to it.
    I don't think that is the case here and that is certainly 
not the position that we are taking. My point simply is if that 
is whatever it takes to accomplish what General Darnell has 
been describing in general terms then that is what we have to 
do.
    And so if in order to accomplish that we have to expend 
funds that wouldn't fit an ordinary case about what is the most 
efficient way of doing something, sometimes the most efficient 
way of accomplishing something, especially like the Joint 
Strike Fighter which you are going to--its variations are going 
to be asked to do different things, right?
    That is an extraordinarily complicated, detailed and 
lengthy process that is going to require a whole lot of 
cooperation and teamwork to get accomplished. So we are well 
aware of that and we want to try to maximize your opportunity 
to accomplish that as soon as possible.
    But more importantly the correct way, the way you are 
comfortable with professionally and saying, ``Yes, I would like 
to be in that plane. I am comfortable in that, and I feel 
totally comfortable in asking someone who has to accept my 
orders to take that plane and do what needs to be done.'' So 
that is the whole motivation.
    On that note I thank you very, very much for your 
candidness. And by the way, Mr. Ahern, thank you for being as 
straightforward today in a lot of these areas where you said 
you would be getting back to us. We appreciate that because 
that means the questions are being taken seriously and the 
implications are understood.
    We want to be partners in this. This is not a contest, I 
can assure you. And I hope that by--and in short order we will 
be able to put together a defense bill we can all look to and 
be proud of. Thank you very much, everybody. Aloha.
    [Whereupon, at 5:18 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                              May 20, 2009

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 20, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T2187.001
    
    [GRAPHIC] [TIFF OMITTED] T2187.002
    
    [GRAPHIC] [TIFF OMITTED] T2187.003
    
    [GRAPHIC] [TIFF OMITTED] T2187.004
    
    [GRAPHIC] [TIFF OMITTED] T2187.005
    
    [GRAPHIC] [TIFF OMITTED] T2187.006
    
    [GRAPHIC] [TIFF OMITTED] T2187.007
    
    [GRAPHIC] [TIFF OMITTED] T2187.008
    
    [GRAPHIC] [TIFF OMITTED] T2187.009
    
    [GRAPHIC] [TIFF OMITTED] T2187.010
    
    [GRAPHIC] [TIFF OMITTED] T2187.011
    
    [GRAPHIC] [TIFF OMITTED] T2187.012
    
    [GRAPHIC] [TIFF OMITTED] T2187.013
    
    [GRAPHIC] [TIFF OMITTED] T2187.014
    
    [GRAPHIC] [TIFF OMITTED] T2187.015
    
    [GRAPHIC] [TIFF OMITTED] T2187.016
    
    [GRAPHIC] [TIFF OMITTED] T2187.017
    
    [GRAPHIC] [TIFF OMITTED] T2187.018
    
    [GRAPHIC] [TIFF OMITTED] T2187.019
    
    [GRAPHIC] [TIFF OMITTED] T2187.020
    
    [GRAPHIC] [TIFF OMITTED] T2187.021
    
    [GRAPHIC] [TIFF OMITTED] T2187.022
    
    [GRAPHIC] [TIFF OMITTED] T2187.023
    
    [GRAPHIC] [TIFF OMITTED] T2187.024
    
    [GRAPHIC] [TIFF OMITTED] T2187.025
    
    [GRAPHIC] [TIFF OMITTED] T2187.026
    
    [GRAPHIC] [TIFF OMITTED] T2187.027
    
    [GRAPHIC] [TIFF OMITTED] T2187.028
    
    [GRAPHIC] [TIFF OMITTED] T2187.029
    
    [GRAPHIC] [TIFF OMITTED] T2187.030
    
    [GRAPHIC] [TIFF OMITTED] T2187.031
    
    [GRAPHIC] [TIFF OMITTED] T2187.032
    
    [GRAPHIC] [TIFF OMITTED] T2187.033
    
    [GRAPHIC] [TIFF OMITTED] T2187.034
    
    [GRAPHIC] [TIFF OMITTED] T2187.035
    
    [GRAPHIC] [TIFF OMITTED] T2187.036
    
    [GRAPHIC] [TIFF OMITTED] T2187.037
    
    [GRAPHIC] [TIFF OMITTED] T2187.038
    
    [GRAPHIC] [TIFF OMITTED] T2187.039
    
    [GRAPHIC] [TIFF OMITTED] T2187.040
    
    [GRAPHIC] [TIFF OMITTED] T2187.041
    
    [GRAPHIC] [TIFF OMITTED] T2187.042
    
    [GRAPHIC] [TIFF OMITTED] T2187.043
    
    [GRAPHIC] [TIFF OMITTED] T2187.044
    
    [GRAPHIC] [TIFF OMITTED] T2187.045
    
    [GRAPHIC] [TIFF OMITTED] T2187.046
    
    [GRAPHIC] [TIFF OMITTED] T2187.047
    
    [GRAPHIC] [TIFF OMITTED] T2187.048
    
    [GRAPHIC] [TIFF OMITTED] T2187.049
    
    [GRAPHIC] [TIFF OMITTED] T2187.050
    
    [GRAPHIC] [TIFF OMITTED] T2187.051
    
    [GRAPHIC] [TIFF OMITTED] T2187.052
    
    [GRAPHIC] [TIFF OMITTED] T2187.053
    
    [GRAPHIC] [TIFF OMITTED] T2187.054
    
    [GRAPHIC] [TIFF OMITTED] T2187.055
    
    [GRAPHIC] [TIFF OMITTED] T2187.056
    
    [GRAPHIC] [TIFF OMITTED] T2187.057
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 20, 2009

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. BARTLETT

    Mr. Ahern. Prior to the Milestone C decision on JCA on May 
30, 2007, the Air Force and the Army conducted independent 
fleet demand assessments. The initial results were that the 
Army identified a need for 75 JCAs to support its Time 
Sensitive/Mission Critical (TS/MC) airlift requirement and to 
replace its aging C-23 fleet. PA&E validated the Army's 
requirement analysis but needed to wait for the Air Force to 
complete its analysis supporting a potential Service 
requirement for 40 aircraft. It was decided at Milestone C that 
the Army and Air Force acquisition programs would be combined 
with the initial mission of supporting the Army's validated TS/
MC cargo movement and an initial procurement of 78 JCAs (the 
current Service programmed quantities of 54 Army and 24 AF 
aircraft). Subsequent analysis by the Air Force did not 
identify additional Air Force missions, beyond the Army's TS/MC 
mission, which would have supported additional Air Force JCAs.
    The Army's TS/MC airlift requirement remains unchanged. 
What has changed is how the Department will address the Army's 
requirement. The Department has internally examined its current 
utilization of its fleet of 400+ C-130 aircraft and determined 
that the Army's requirement can be met through the use of a 
smaller number of JCAs and the Air Force's vast fleet of C-
130s.
    The Department determined that the Air Force can properly 
meet the Army's TS/MC airlift requirements with a JCA fleet 
size on par with the current C-23 fleet along with having 
ownership of the mission. The FY2010 JCA budget decision is not 
one of ``what we can afford,'' but instead one of how we can 
best utilize the assets already inherent in the Department. 
[See page 15.]
                                ------                                


             RESPONSE TO QUESTION SUBMITTED BY MR. MARSHALL

    Mr. Ahern. The United States Transportation Command 
(USTRANSCOM) and the Office of the Secretary of Defense, Cost 
Analysis & Program Evaluation (OSD(CAPE)) are co-leading the 
Mobility Capabilities and Requirements Study--2016 (MCRS). 
TRANSCOM is outside of OSD and is therefore independent of 
those officials charged with making critical decisions about 
resource allocations. OSD(CAPE) has the statutory authority and 
responsibility to provide independent analysis and advice and 
may communicate its views directly to the Secretary of Defense 
and the Deputy Secretary of Defense without obtaining the 
approval or concurrence of any other official within the 
Department.
    The primary objective of the MCRS is to identify the 
mobility capabilities and requirements needed to support the 
National Defense Strategy into the next decade. The study is 
being conducted in a transparent and collaborative fashion by a 
team which includes representatives from the military Services, 
Joint Staff, Combatant Commanders, and other stakeholders. The 
team has been charged with applying analytical rigor to 
determine actual mobility requirements and has not been 
directed toward a set of pre-determined results.
    Oversight committees of stakeholders at the O-6, 1-star, 
and 3-star levels, have routinely met to review study progress. 
[See page 16.]
                                ------                                


             RESPONSE TO QUESTION SUBMITTED BY MS. GIFFORDS

    General Johns. Homeland defense is DoD's first priority and 
the Air Force is committed to the ASA mission now through the 
long term. As you know, long term recapitalization of the 
fighter and tanker fleet requires many years. Within the 
funding available, the Air Force must maximize the life of the 
existing aircraft until they can be replaced. All of the 
options to ensure the ASA mission remains viable are dependent 
on the life expectancy of these airframes.
    The Air Force, in conjunction with DoD, is currently 
developing plans to ensure we can meet the combatant 
commander's requirements for the defense of the Nation--whether 
it is with Air National Guard aircraft or in combination with 
active duty assigned aircraft. There are many moving pieces as 
we look at all the different Air National Guard units around 
the country to determine the best alignment of our limited 
resources. We anticipate an update from the Quadrennial Defense 
Review regarding national requirement, and subsequently, the 
Air Force's requirement for this critical mission. [See page 
24.]
                                ------                                


             RESPONSES TO QUESTIONS SUBMITTED BY MR. HUNTER

    General Darnell. Combat Search and Rescue is the most 
demanding of all of the personnel recovery missions and it 
remains very important to the Department. CSAR-X was to provide 
an enhanced capability to conduct long-range penetration 
missions for personnel recovery in combat scenarios. All 
services and the U. S. Special Operations Command currently 
possess a wide spectrum of complementary personnel recovery 
capabilities. A deep penetration mission to recover downed 
crews in a medium-to-high threat environment requires complex 
planning and joint implementation, if not a joint solution.
    Since this mission drives many of the CSAR-X requirements, 
it is imperative we reassess the mission in the context of 
joint force capabilities. Development of single service 
solutions with single purpose aircraft, requires additional 
consideration especially regarding joint force capability needs 
for personnel recovery.
    The results of the reconsideration will be used to develop 
the FY11 budget request. [See page 19.]
    General Darnell. Air Force Special Operations Command 
(AFSOC) provides forces to the Joint Force Commander via a 
classified Air Tasking Order (ATO) process that is separate 
from the general purpose ATO. When there is not an existing 
SOCOM requirement for AC-130s, the aircraft are put on ground 
or air alert to respond to ground force commanders' request for 
air support. Responding to each request individually, the Air 
Operations Center considers the proximity, availability and 
capabilities of combat aircraft in the Area of Responsibility, 
and tasks the optimal aircraft to respond.
    In order to increase the availability of gunship-like 
capabilities to ground forces, US Special Operations Command 
and the Air Force intend to modify all 12 MC-130Ws with a 
Precision Strike Package that will include ISR/targeting 
sensors, a medium-caliber gun, and Special Operations Stand-Off 
Precision-Guided Munitions (SOPGMs) through an effort called 
DRAGON SPEAR. These modifications will convert the MC-130Ws 
into multi-mission aircraft capable of mobility, day/night 
precision fires, and armed intelligence, surveillance, and 
reconnaissance. [See page 27.]

                                  <all>

</pre></body></html>
